<html>
<title> - BERNHARDT NOMINATION</title>
<body><pre>[Senate Hearing 116-143]
[From the U.S. Government Publishing Office]




                                                          S. Hrg. 116-143

                          BERNHARDT NOMINATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   to

                       CONSIDER THE NOMINATION OF
                     THE HONORABLE DAVID BERNHARDT
                    TO BE SECRETARY OF THE INTERIOR

                               ----------                              

                             MARCH 28, 2019

                               ----------          
                               
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               
               
               

                          BERNHARDT NOMINATION
                          
                          
                          
                          
                          
                          



                                                        S. Hrg. 116-143
 
                          BERNHARDT NOMINATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   to

                       CONSIDER THE NOMINATION OF
                     THE HONORABLE DAVID BERNHARDT
                    TO BE SECRETARY OF THE INTERIOR

                               __________

                             MARCH 28, 2019

                               __________
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
        
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 36-261                WASHINGTON : 2020 
        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA MCSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                   Lucy Murfitt, Deputy Chief Counsel
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     3
Gardner, Hon. Cory, a U.S. Senator from Colorado.................     5

                                WITNESS

Bernhardt, Hon. David, nominated to be Secretary of the Interior.     8

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Exploration & Mining Association:
    Letter for the Record........................................   348
American Farm Bureau Federation:
    Letter for the Record........................................   349
American Woodcock Society, et al:
    Letter for the Record........................................   350
Americans for Responsible Recreational Access, et al:
    Letter for the Record........................................   353
Archery Trade Association:
    Letter for the Record........................................   355
Associated Governments of Northwest Colorado:
    Letter for the Record........................................    51
Association of Fish & Wildlife Agencies:
    Letter for the Record........................................   356
Association of O&C Counties:
    Letter for the Record........................................   358
Baker County Commission (Oregon):
    Letter for the Record........................................   359
Beaver County Commission (Utah):
    Letter for the Record........................................   360
Bernhardt, Hon. David:
    Opening Statement............................................     8
    Written Testimony............................................    10
    Letter to Senator Murkowski dated 12/31/2019 regarding the 
      DOI's OIG Investigative Report.............................    36
    Responses to Questions for the Record........................   164
Board of County Commissioners, Mesa County (Colorado):
    Letter for the Record........................................   361
Board of County Commissioners, Rio Blanco County (Colorado):
    Letter for the Record........................................   363
Cassidy, Hon. Bill:
    Article titled, ``Offshore Wind Bonanza Draws Bidding War in 
      Record-Setting Sale'' by Jennifer A. Dlouhy dated December 
      13, 2018...................................................    66
Chaves County Board of Commissioners (New Mexico):
    Letter for the Record........................................   365
Colorado Farm Bureau:
    Letter for the Record........................................    53
Colorado Water Congress:
    Letter for the Record........................................    54
Conservation Lands Foundation:
    Statement for the Record.....................................   366
(The) CorpsNetwork:
    Letter for the Record........................................   367
Council to Advance Hunting and the Shooting Sports:
    Letter for the Record........................................   368
Family Farm Alliance:
    Letter for the Record........................................   369
Gardner, Hon. Cory:
    Opening Statement............................................     5
Garfield County Board of Commissioners (Utah):
    Letter for the Record........................................   371
Gila River Indian Community:
    Letter for the Record........................................   372
Gordon, Hon. Mark:
    Letter for the Record........................................   374
Harney County Court (Oregon):
    Letter for the Record........................................   375
Hirono, Hon. Mazie K.:
    Congressional Letter for the Record to Secretary Zinke and 
      Secretary Ross dated 9/12/2018.............................    59
Lee, Hon. Mike:
    Letter for the Record from Scott A. de la Vega, Director of 
      the U.S. Department of the Interior Departmental Ethics 
      Office dated 3/25/2019.....................................    87
Manchin III, Hon. Joe:
    Opening Statement............................................     3
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Endangered Species Act Reform Coalition:
    Letter for the Record........................................   376
National Park Hospitality Association:
    Letter for the Record........................................   377
National Shooting Sports Foundation, Inc.:
    Letter for the Record........................................   379
Piute County Commission (Utah):
    Letter for the Record........................................   380
Public Employees for Environmental Responsibility:
    Letter for the Record........................................   381
Rocky Mountain Elk Foundation:
    Statement for the Record.....................................   390
    Letter for the Record dated 3/26/2019........................   391
RV Industry Association:
    Letter for the Record........................................   393
Society for Range Management:
    Letter for the Record........................................   394
Southern Ute Indian Tribe:
    Letter for the Record........................................    55
United States Cattlemen's Association:
    Letter for the Record........................................   395
Western Caucus Foundation:
    Letter for the Record........................................   397
Wyden, Hon. Ron:
    Letter to Secretary Zinke from David B. Weinberg dated 4/13/
      2017.......................................................    20
    Email from David Bernhardt to Gary Frazer, Todd Willens, Greg 
      Sheehan and Gareth Rees dated 10/5/2017....................    24
    Bernhardt DOI calendar excerpts from 10/11-30/2017...........    25
    Email from Gary Frazer dated 11/9/2017.......................    33
Wyoming Stock Growers Association:
    Letter for the Record........................................   398


                          BERNHARDT NOMINATION

                              ----------                              


                        THURSDAY, MARCH 28, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order. We are considering this morning the nomination 
of Mr. David Bernhardt to be the Secretary of the Interior.
    Mr. Bernhardt, I welcome you back to the Committee again. 
You have been here numerous times. Thank you for the visit that 
we had last week. I know that you have had a chance to visit 
with many of the members, and I know they appreciate that time 
with you, as I certainly did. I also want to thank you for all 
you have done at the Department, for your willingness to serve 
in a new and a higher capacity, and for enduring what has 
become, I guess, an increasing slog through the nomination 
process--so thank you for that.
    Senator Gardner will introduce Mr. Bernhardt here shortly, 
and then Mr. Bernhardt will give his opening statement. I will 
swear you in.
    But I want to start off by explaining why I believe David 
Bernhardt is an excellent choice for this important position. 
Part of it is background. As a Colorado native and an avid 
sportsman, Mr. Bernhardt understands how federal land 
management decisions affect local communities. He has seen how 
federal policies impact people's access to and use of public 
land, and he recognizes the need to balance conservation with 
opportunities for economic development.
    Another part of it is experience. We need experience around 
here. Mr. Bernhardt has served as Solicitor, as Deputy 
Secretary, and now as Acting Secretary of the Interior. He has 
proven his ability to lead the Department. He has built strong 
working relationships with those who are affected by its 
decisions. I believe there is no question that he is ready for 
the job and can handle everything that it entails.
    These are crucial considerations, especially for those of 
us from western states. We all know the story around here, I 
talk about it a lot. Alaska has more federal land than any 
other, and the Department of the Interior controls most of 
those acres. Back home, we often refer to the Department as our 
``landlord,'' not necessarily something that we enjoy, not in 
glowing terms. It has been part of our reality there. People in 
Alaska clearly recognize that the decisions that are made back 
here have a direct impact on them, their families, and their 
livelihoods.
    But we have seen a change in that relationship with this 
Administration. I think we have gone from that landlord-tenant, 
`can I hang a picture over here' type of a relationship to one 
that is based more on a working partnership, and I appreciate 
that a great deal. We have seen good progress in the State of 
Alaska with this Administration in several different areas--
whether it is the NPR-A, whether it is the 1002, whether it is 
gaining access for a small community in remote Alaska--we have 
had a good partner there.
    When I meet with Alaskans, the prevailing sentiment is that 
Interior is doing a good job, and that is a sea change from 
where we were just a few years ago. I think it helps to have 
some Alaskans on your team, which I greatly appreciate. You 
have Joe Balash, and you have Tara Sweeney as the Assistant 
Secretary. I think we also see the reflection of the work led 
by Secretary Zinke at the time when you were working with him 
as Deputy and basically the ``Chief Operating Officer'' there.
    So Alaska is not alone in seeing the benefits. A lot of 
people in a lot of states are benefiting from better leadership 
at the Department, and that is why Mr. Bernhardt's nomination 
is supported by a wide range of stakeholder groups--ranging 
from the Alaska Federation of Natives to Ducks Unlimited and 
the Safari Club.
    But for all the progress that we have made, we know that 
there is a lot of work ahead. We need to fully tap into our 
resource potential, we need to strengthen our mineral security, 
something I talk about a lot here on the Committee. We need to 
address the multi-billion-dollar maintenance backlog at our 
land management agencies, particularly the National Park 
Service. That is a concern that many, many of us have. We need 
forest management reforms to address the growing threat of 
wildfire, we need to lift decades-old Public Land Orders, we 
need to do more to address climate change and we have to 
account for our territories, which clearly have a variety of 
different needs. And that is only a partial list here.
    So we will have an opportunity this morning to engage you 
in further questions. For members who have questions here this 
morning, I am here for as long as anybody else wants to be. 
Committee members will have their standard opportunity to 
submit questions for the record. I would ask that these 
questions be returned today by the close of business.
    Mr. Bernhardt, I want to wrap up by thanking you for your 
willingness to continue to serve and to take on even more 
responsibility at the Department.
    I also appreciate the work that you did, with our Committee 
and internally in the Administration to help so many members 
advance their priorities into law with the recently passed 
lands package. That was significant legislation for many of us 
on a host of different levels, and you really helped to 
facilitate that. So thank you so much for that.
    This is your third nomination so you know the drill here. 
You know also that the nomination process has unfortunately 
become more difficult, perhaps more contentious, even for good 
and well-qualified individuals. But know that my intention is 
to move quickly to confirm you to this new role as soon as we 
possibly can.
    With that, Senator Manchin, I will turn to you for your 
opening remarks.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Madam Chairman, for holding the 
hearing today, and thank you, Mr. Bernhardt, for your 
willingness to serve and your courtesy in meeting with me in my 
office a few times and appearing before the Committee this 
morning. I want to welcome your children with you today. It is 
nice to have them in the audience, and I hope they will enjoy 
this experience.
    As a former Governor, I have always believed that an 
executive is entitled to deference when selecting his or her 
team as long as the candidates are ethical and qualified.
    Mr. Bernhardt, it is clear that you have the knowledge and 
experience to serve as Secretary. You know the Interior 
Department inside and out and are well versed in all the issues 
that come before it. I have reviewed your experience and 
qualifications. We have met on two occasions regarding your 
nominations for the Secretary role and discussed a variety of 
issues, including my concerns regarding offshore drilling, 
mitigation policies, and taxpayer fairness. I would also note 
that we had lengthy discussions about the importance of 
ensuring a culture at the Department of the Interior that 
reflects the highest level of ethical compliance and integrity. 
Your record has been scrutinized. And in light of the greater 
amount of responsibility and authority that comes with this 
job, I think that is only fair. It is not just about compliance 
with the law and the ethics regulations, it is about a culture 
of impartiality, fairness, and scientific integrity, and that 
starts with you, the example you set for the 70,000 employees 
that you will oversee at the Department of the Interior.
    These principles are key to ensuring that a balance is 
struck between the environment and the safe and responsible use 
of our public lands. I would ask you to address these issues 
today before the Committee and commit to the highest standards 
of ethics, not just in the letter of the law, but truly, the 
spirit of the law.
    If confirmed you will be the guardian of our nation's 
greatest natural treasures, a vast network of public lands, 
including our national parks, our monuments, and our historical 
sites. It is imperative that all of our citizen stakeholders 
that have interest in the conservation and use of our federal 
lands are able to engage with the Department, be recognized 
with impartiality, and access information regarding the 
Department's activities in a timely and transparent manner. I 
think that is particularly important in light of the expansive 
jurisdiction of the Interior Department.
    Whether it be payments to miners for their healthcare 
benefits, processing permits for the privilege of energy 
production on federal lands, or ensuring the U.S. Geological 
Survey can conduct its critical work of collecting and 
analyzing data on our changing climate, the Department of the 
Interior has a huge amount of responsibility and diverse 
jurisdiction.
    In particular, I believe the Secretary of the Interior must 
prioritize and balance our resource needs with environmental 
protection and fairness for all public landowners, the American 
taxpayer. A perfect example of this is ensuring the Department 
is working with industry to accelerate reductions in venting 
and flaring of methane on public lands. We must also examine 
ways to update our outdated mining laws to ensure a fair return 
for our taxpayers. So I look forward to more conversations with 
the agencies on that and many other matters.
    I firmly believe that producers and other users of our 
federal lands that have been granted the privilege of doing 
business on federally managed lands must be responsible for 
leaving those lands and, I repeat, leaving those lands in 
better condition than they found them. I believe that is a 
realistic expectation shared by most Americans that should be 
met.
    I also urge you to prioritize the preservation of public 
lands and protect them for the benefit and enjoyment of our 
generation and future generations as your agency makes 
decisions regarding future energy production on federal land 
and on the Outer Continental Shelf.
    I believe the taxpayers must be protected from permanent 
damage to the lands because these lands truly belong to the 
American people and support hunting, fishing, hiking, and many 
other outdoor recreation activities in communities across the 
country. That will require vigilance on your part, sir. 
Therefore, if you are confirmed I hope to work with you 
collaboratively to ensure that protections for our public lands 
are robust and enforced.
    I would also like to address the importance of public lands 
and outdoor recreation in my home state. Beautiful West 
Virginia truly is wild and wonderful. We are home to the New 
River National Recreation Area, the Appalachian Forest, Coal, 
and Wheeling National Heritage Areas, not to mention Harper's 
Ferry and so many others. Programs like those administered by 
the Department of the Interior are key to ensuring our West 
Virginia way of life is preserved for generations to come. That 
is why I am a supporter of permanent funding for the Land and 
Water Conservation Fund (LWCF). Over $240 million in LWCF funds 
have been used to increase access in the Monongahela National 
Forest, Harper's Ferry, the New River Gorge National River, 
among others.
    In fact, LWCF funds paid for every single public access 
point along the Lower and Middle Gauley River in West Virginia, 
an area used and over 50,000 people per year that enjoy the 
beautiful rapids that we have. And just this year, LWCF funds 
helped protect Summit Point Battlefield, the site of a 
significant Civil War battle. LWCF is a bipartisan program with 
national support. I must admit that I am concerned by the 
Administration's lack of support for this program, sir.
    Furthermore, the deferred maintenance backlog is another 
major challenge that I think we both talked about. It is going 
to be facing you and the Department, and I look forward to 
hearing more on how you plan to address the growing backlog 
problems we are facing in restoring our parks.
    In conclusion, I look forward to discussing these and other 
matters today during your confirmation hearing, sir. I believe 
you are qualified and have a great deal of experience. I am 
interested in learning more from you today, for your plans for 
the Department were you to be confirmed. I look forward to 
hearing how you would execute your responsibilities in a manner 
that assures the American people our public lands are not just 
being maintained but being improved for the benefit of 
generations to come.
    So I want to thank you again. Thank you for being here, 
sir.
    Madam Chairman.
    The Chairman. Thank you, Senator Manchin.
    I will now turn to Senator Gardner and would ask that, as 
the home state Senator, you be allowed the opportunity to 
introduce Mr. Bernhardt before the Committee. After that, I 
will swear you in and we will proceed.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Chairman, and thank you, 
Ranking Member, for your remarks today.
    It is my honor to introduce a fellow Coloradan, a Colorado 
native and my friend, David Bernhardt, as the nominee to be 
Secretary of the Interior to the Energy and Natural Resources 
Committee--this very important position for Colorado and 
indeed, this country.
    Thank you for being here. Thanks for bringing your 
beautiful family who I have known for their entire lives. Thank 
you very much for the opportunity to have them all here today.
    I appreciate the fact that you keep moving up in the 
agency. It means I do not have to really write a new speech, I 
just get to add a little bit more detail, including the fact 
that I believe, if our count is right, you will become the 
seventh Secretary of the Interior from the great State of 
Colorado. And seven is a very special number for the State of 
Colorado. So thank you very much, David, for your willingness 
to serve.
    I have known you personally and professionally for over two 
decades. Your roots are deep both on the plains of Colorado and 
the Western slope.
    We share a lot of common interests in rural development and 
saving small towns. My experience stems from growing up in the 
agricultural community of Yuma on the high plains. Mr. 
Bernhardt's formative years were spent on the Western slope of 
Colorado, an area that is a microcosm of all the things we 
cherish about our public lands.
    We both began our public service, only one year apart from 
each other, working for Colorado State Representative Russell 
George, later becoming the Speaker of the House in the Colorado 
General Assembly.
    Mr. Bernhardt worked with my wife, Jaime, at the Department 
of the Interior during the George W. Bush Administration.
    Mr. Bernhardt's personal background and public and private 
sector professional experiences prove he is a strong voice for 
the West and extremely well qualified for the nomination to be 
Secretary. Extensive, extensive insight on Western water 
policy, natural resources policy, and Indian affairs, just to 
name a few.
    Those that have worked with Mr. Bernhardt commend him for 
his integrity and his wealth of knowledge on the issues under 
the Department of the Interior's jurisdiction.
    In 2008 after the Department reached the largest Indian 
water rights settlement in the nation's history, Secretary 
Kempthorne personally acknowledged Mr. Bernhardt's work as then 
Solicitor and stated, and I quote, ``His effective coordination 
both within Interior as well as with the local, tribal and 
state Congressional leaders was essential to the success we 
celebrate today.''
    More recently, he worked to accommodate many Western 
states' requests for more flexibility under the Greater Sage 
Grouse RMP amendment. John Swartout, who as a Senior Policy 
Advisor ran point on the issue for Colorado's Governor John 
Hickenlooper, had this to say in December 2018 once the process 
was completed, ``David Bernhardt is an honest man who puts all 
his cards on the table and keeps his word. I have worked with 
DOI for 25 years and David is one of the finest people I have 
ever worked with.''
    Dale Hall, the CEO of Ducks Unlimited, an organization that 
does more real conservation work on the ground than most of the 
groups that have the word conservation in their name, had this 
to say when Mr. Bernhardt's nomination for Secretary was 
announced, ``I have known and worked with David Bernhardt for 
more than a decade and we are excited to continue to work with 
him as the new Secretary of the Interior. His integrity in 
following the law is beyond reproach. David Bernhardt is a 
champion of conservation and the right person for the job. We 
urge the Senate to swiftly confirm him.''
    Colleagues of his working for Representative Scott McInnis 
from Colorado, who represented your hometown, the hometown of 
Rifle, at the time in the House swore he worked 40 hours a day, 
8 days a week. I think that was the right math he said.
    Notably during Mr. Bernhardt's tenure in office, 
Congressman McInnis was the House author of the bill that led 
to the designation of the Great Sand Dunes National Monument to 
become a national park.
    Having now worked at very senior levels in the Department 
of the Interior over the course of many years, there is zero 
question that Mr. Bernhardt is qualified to do this job. None. 
No question.
    Along with Mr. Bernhardt's professional career, I believe 
it is important to fully understand his background or the 
foundation of his interest in public lands that further 
qualifies him for this role.
    You grew up in a small town, on the outskirts of the Town 
of Rifle, Colorado, located in the Colorado's Western slope. 
Few places embody the spirit of our public lands more than the 
Town of Rifle, Colorado, this incredible area of our great 
state to lead this country as Secretary of the Interior.
    Growing up in rural Colorado instilled in David the Western 
values and interests to this day that he brings to the job 
enjoying hunting, recreation, the outdoors, fishing, cherishing 
our great outdoors.
    Rifle is located in Garfield County, an area where about 60 
percent of the lands are protected federal public lands. Rifle 
was founded as a ranching community along the Colorado River. 
It retains that heritage today along with tremendous support 
for outdoor recreation including fishing, hiking, skiing, 
rafting, rock climbing, sits at the edge of the Piceance Basin, 
an area in Colorado that has vast amounts of natural gas energy 
resources.
    You grew up in the oil shale boom and the bust that has 
made you more sensitive to the potential benefits and potential 
impacts both environmental and social. In the 1980's Rifle was 
hit by the state's oil shale crash, and you personally 
experienced some of the hard times the nation's rural 
communities often face.
    Much like the Department of the Interior, itself, Rifle is 
a community that is a product of its public lands and Western 
heritage. Literally located within a few miles of the iconic 
Grand Mesa which is the world's largest flat top mountain, the 
flat top's wilderness, the Roan Plateau, that represents a home 
base among these public lands with virtually unmatched access 
to world class outdoor experiences which is why you have a 
passion for these issues.
    Your previous experience at Department of the Interior 
allowed you to fix a problem in Colorado that for eight years 
during the Obama Administration was said could not be done, 
that it was unfixable. As a result, revenue owed to three 
counties in Colorado that had been sitting in an account for 
over a decade was distributed in early 2018.
    David believes you do not just push problems off of your 
front porch to someone else, you find a solution to it and you 
fix it.
    That previous experience includes prior to his current 
position being tapped to be Solicitor for the Department, to be 
confirmed by Solicitor by a voice vote by the U.S. Senate in 
2006, earned bipartisan support during his confirmation process 
in the last Congress as Deputy Secretary.
    Your integrity and ability are assets that should bolster 
this case for nomination and not distract from it. I hope my 
colleagues can keep this in mind as we conduct this hearing 
today.
    I look forward to your testimony, Mr. Bernhardt, and I am a 
proud Coloradan that you are here today.
    Thank you.
    The Chairman. Thank you very much, Senator Gardner, and 
also for the little geography lesson there on Colorado. It was 
good for all of us.
    Mr. Bernhardt, I would ask you to rise.
    The rules of the Committee which apply to all nominees 
require that they be sworn in connection with their testimony. 
So raise your right hand, please.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    Mr. Bernhardt. I do.
    The Chairman. Thank you. You may be seated.
    Before you begin your statement, I will ask three questions 
addressed to each nominee that comes before the Committee.
    First is will you be available to appear before this 
Committee and other Congressional committees to represent 
departmental positions and respond to issues of concern to the 
Congress?
    Mr. Bernhardt. Yes.
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict or 
create an appearance of such a conflict should you be confirmed 
and assume the office to which you have been nominated by the 
President?
    Mr. Bernhardt. No.
    The Chairman. Are you involved or do you have any assets 
held in blind trusts?
    Mr. Bernhardt. No.
    The Chairman. At this point you may proceed with your 
opening statement. I believe you have family here with you. We 
welcome them to the Committee and are pleased that you are with 
us, even on a school day. We appreciate that and we appreciate 
your support of your father.
    With that, Mr. Bernhardt, please proceed.

STATEMENT OF HON. DAVID BERNHARDT, NOMINATED TO BE SECRETARY OF 
                          THE INTERIOR

    Mr. Bernhardt. So, I have Katherine, who is in eighth grade 
and was willing to come today, and William, who is in tenth 
grade and was excited to come today.
    [Laughter.]
    And my wife is ill, so she wasn't able to be here today, 
but they're here and it's great.
    The Chairman. Wonderful, welcome.
    Mr. Bernhardt. Chairman Murkowski, Senator Manchin, members 
of the Committee, good morning. I am humbled to appear here 
today as the President's nominee for the position of Secretary 
of the Interior.
    It was an honor to be introduced by Senator Gardner. I 
deeply appreciate his support.
    Today's hearing is the third time that I've appeared before 
this Committee as a nominee for a position within the 
Department of the Interior. During my service at the 
Department, both as the Deputy and as the Solicitor, I have 
worked with many of you and your staff. I have met with many of 
you in person and by phone on various issues that were actually 
of concern to you, and I will always make myself available to 
your request.
    For me, there are few duties as important to the country as 
the varied missions of the Department of the Interior.
    No one dedicates nearly a decade of their life to any 
organization unless they fundamentally believe in it. Even 
after holding nearly every single job within the immediate 
office of the Secretary, I catch my breath every time I walk 
into the Secretary's office. Perhaps you do that when you step 
on to the Senate Floor.
    The reality is that I have spent over 15 years of a 25-year 
career in public service, most of that time at the Department 
of the Interior. In fact, I was recently told that of the 52 
previous Interior Secretaries, only Oscar Chapman, who happens 
to be another lawyer from Colorado, who was promoted from Under 
Secretary to Secretary in 1949, had more experience at the 
Department than I do now sitting before you to be considered 
for the very same promotion.
    I have a personal attachment to many of the places 
entrusted to the Department. I know and love the various 
bureaus' rich histories and their varied cultures. I appreciate 
that the people who work at Interior choose to do so because 
they believe in serving the American people first. I treasure 
working with them. I've known many of them for over 20 years.
    Interior's decisions impact livelihoods. They impact 
communities' futures and they impact people's very way of life. 
That reality will not be forgotten on my watch, if confirmed.
    I have had the remarkable good fortune over the course of 
my career to work on many of the most complex issues affecting 
each of the Department's bureaus. I have a very clear 
understanding of the often conflicting, legal and policy issues 
that I will face, if confirmed, in balancing Interior's varied 
missions.
    As Deputy Secretary my focus has been on organizational 
improvement and execution within the Department. Improvement 
efforts have included aggressively addressing workplace 
misconduct throughout the Department, beginning to 
fundamentally transform the ethics program across the bureaus 
and improving our business processes. I have also worked to 
thoughtfully execute the President's agenda in the Department.
    By issuing a series of Executive Orders and Presidential 
Memorandums, the President has transparently provided us at 
Interior a very clear direction on his priorities. We have 
moved with dispatch to implement his vision.
    One of the President's priorities is to strive to ensure a 
conservation legacy, second only to Theodore Roosevelt. Over 
the last two years we have opened or expanded hunting and 
fishing opportunities on over 380,000 acres of wildlife refuge 
at more than 30 refuges. At the same time, the Bureau of Land 
Management restored over 689,000 acres of prime sage bush 
habitat that is vital to many game species.
    We are also working to reduce unnecessary regulatory 
burdens without sacrificing environmental outcomes. In doing 
so, we're taking actions to appropriately respect the 
regulatory role of the states. Through our effort and, 
honestly, also because of Congress' utilization of the 
Congressional Review Act, Interior's combined deregulatory cost 
savings for Fiscal Year 2017 and 2018 had a net present value 
of $3.69 billion. That's quite significant. In the last two 
years we've been in the top two and three in deregulatory 
efforts across the government.
    If I receive your consent to this nomination, I will 
approach issues with an open mind. I will actively seek input 
and listen to varied views and perspectives to help ensure that 
the conclusions I draw are well informed.
    When making decisions I strive to maintain a long-term 
view, and I often think of the guidance provided by Gifford 
Pinchot, President Roosevelt's Conservationist in Chief. As he 
laid out his mission for the newly created Forest Service he 
said, ``When conflicting interests must be reconciled, the 
question shall always be answered from the standpoint of the 
greatest good of the greatest number and in the long run.'' 
This direction rings as true today as it did then.
    I ask for your consent to the nomination, and I thank you 
for giving me the time.
    [The prepared statement of Mr. Bernhardt follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    The Chairman. Thank you, Mr. Bernhardt. We appreciate your 
comments this morning.
    Let's go ahead and begin with a round of questions.
    I have noted in my opening statement, and this was 
reaffirmed by Senator Manchin as well as Senator Gardner, that 
in terms of qualifications, experience within the Interior 
Department, you really come to us with a set of qualifications 
and again, experience that we seldom see. I think it is 
unparalleled in terms of the time and the extent of your 
background in these areas.
    I will begin my questions then with something that is not 
related to the experience, but maybe experience outside of the 
time that you worked within the Department.
    You are not the first nominee who has worked somewhere else 
in the past and has had recusals as a result, but for whatever 
reason you seem to have outside groups working harder against 
your nomination than most anybody else we have had in front of 
us. I am sure we will hear some discussion about that today.
    So at the outset, I will ask you how will you handle ethics 
and potential conflicts both for yourself and for the 
Department?
    Mr. Bernhardt. Thank you for that question.
    I believe that public trust is a public responsibility and 
that maintaining an ethical culture is critical.
    On a personal level I have fully complied with my ethics 
agreement, the ethics laws, and my ethics pledge and I will do 
so in the future.
    I've actively sought and consulted with the Department's 
designated ethics officials for advice on particular matters 
involving clients, and I have implemented an incredibly robust 
screening process to ensure that I don't meet with former firm 
or former clients to participate in particular matters 
involving specific parties that I've committed to recuse myself 
from.
    I believe that it's also important to recognize the 
Department's ethics responsibilities and role. The Department's 
ethics program for years has been subject to a great deal of 
criticism, a great deal of oversight and a lack of funding. If 
you look back at old reports, you'll see that the Inspector 
General and the Ethics Office both asked for additional 
resources and didn't get them over the last several years.
    Here's the steps that we have taken. We have elevated the 
designated agency ethics official back up to directly reporting 
to the Solicitor, the third ranking person in the Department. 
That was something that Earl Devaney recommended in the mid-
2000s that I implemented that somehow got de-elevated in the 
prior Administration.
    We have hired extremely good leaders to come in and help 
lead a new ethics department and, as of today, we have hired 42 
counselors within the Department.
    And if you want to know what our problems really look like 
at Interior and the challenges we face in ethics, I would 
suggest that you read the recent Inspector General's report on 
philanthropy by the Park Service that was just out or the 
strategic plan that IG put out. She acknowledges in there that 
we are making tremendous efforts and strides in creating a 
better and more robust program. I know, I know how important 
and how devastating it is when folks at the top act in an 
unethical manner. It affects the Department across the board. 
And we have implemented a number of things to begin to change 
that pathway. And I'm going to need your help to actually 
consolidate the ethics programs across the bureaus.
    The Chairman. Thank you for that, Mr. Bernhardt. I think 
you will find that on this Committee we have had more 
occasions, unfortunately, than we would like to raise the issue 
of what is happening within the workplace in terms of 
misconduct and ethics issues. And as you point out, the impact 
then to the agency in terms of the morale, just the working 
environment, it must be addressed.
    The National Park Service is, unfortunately, the agency 
that, time and time again, comes forward as an area that has to 
be addressed. And so, whether it is sexual misconduct, major 
ethical violations, knowing that you are shining a very serious 
spotlight on this is critically, critically important.
    I am going to turn to Senator Manchin, but I understand you 
are going to defer.
    Senator Manchin. I am going to defer to Senator Wyden 
because there are a lot of our members here who have other 
committees to go to. I am going to be here to the end.
    The Chairman. Thank you.
    Senator Wyden. I thank my colleagues, both the Chair and 
Senator Manchin.
    Mr. Bernhardt, you asked to come to my office to say that 
you were the guy who stood up for strong ethics at Interior 
during the George W. Bush years. And less than 48 hours ago, 
you told me in the Bush years you advised Julie McDonald, a 
notoriously corrupt Interior official, to clean up her act.
    Ultimately, the Inspector General found McDonald 
politically meddled with the scientific conclusions of Fish and 
Wildlife endangered species reports and McDonald had to resign.
    A few hours after you and I met, I read Interior Department 
documents obtained through a Freedom of Information Act request 
that show within the last two years you blocked the release of 
a Fish and Wildlife report with a new analysis of the dangerous 
effects of toxic chemicals. So you asked to come to my office 
to tell me your ethics are unimpeachable, but these brand-new 
documents I just saw make you sound like just another corrupt 
official.
    Why would you come to my office to lie to me about your 
ethics?
    Mr. Bernhardt. Well Senator, with all due respect, the news 
article you're referring to is not even close to that actual 
story.
    Senator Wyden. I read the documents. Forget the news 
article, I read the documents.
    Mr. Bernhardt. And if you read those documents, you'll see 
that, I mean not the documents, but even in that article the 
Fish and Wildlife Service employee that's quoted there says 
everything was perfectly appropriate.
    And let me tell you what the challenge is when I get a 
document. I make decisions based on exactly the same standards 
on every single thing that comes to my desk and here are my 
standards. Have we appropriately dealt with the facts and the 
information as we see it? That's a factual question. Have we 
dealt with the parameters of the law that we have? That's a 
legal question.
    And then there's also at times a policy question. In this 
particular issue, there's no policy, but there is a very 
significant and important thing, you're dealing with some of 
the most difficult consultations on the planet. And when I read 
the document my reaction to it was this is really an 
interesting draft but it clearly didn't have any legal review. 
And in our world you can't ignore the law and come up with a 
scheme. You have to have it fit the law and the facts.
    And so, I basically said, let's go kick it over to career 
lawyers, have them look at it and their assessment was exactly 
like mine. So what we decided is that the approach needed to be 
readdressed.
    Senator Wyden. My time is short.
    Just like Julie McDonald, you meddled with the science. You 
inserted yourself in the scientific process and I would just 
ask, Madam Chair, for documents that show what I am saying is 
accurate and what Mr. Bernhardt is saying is not true, attest 
to that point.
    I would ask unanimous consent the documents be put into the 
record.
    Thank you, Madam Chair.
    [Documents from Senator Wyden follow.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Senator Wyden. Now, I want to go into this conflict issue a 
bit more with the remainder of my time.
    Mr. Bernhardt, I am not claiming that you are big oil's 
guy. The big oil lobbyists are making that claim. Your former 
clients in the oil and gas industry have been caught on tape 
crowing about how you are their guy at Interior.
    I am thinking back to how Ryan Zinke sat in your seat and 
said nine times he would be like Teddy Roosevelt, but he left 
with an enormous ethical set of clouds.
    I have not seen any evidence that you ever publicly 
objected to any of Zinke's activities, A. And B, there is an 
Inspector General report indicating that you have given the 
green light to some of them.
    [The DOI OIG Report referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    So I am going to close because my time is out. I think you 
are so conflicted that if you get confirmed you are going to 
have one of two choices. One, you are going to have to 
disqualify yourself from so many matters I don't know how you 
are going to spend your day. Or two, you are going to be making 
decisions that either directly or indirectly benefit former 
clients, regularly violating your ethics pledge.
    And for colleagues for whom this is a new matter, I would 
urge you to take a look at the documents that have just come 
out from the Freedom of Information Act lawsuit because I think 
they make my point.
    Thank you, Madam Chair.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Madam Chair.
    Already, with the first questions, we have seen attacks 
impugning the character of our nominee today.
    I understand that people are going to have differences of 
opinions. I understand that people are going to vote no. But to 
attack the witnesses? This is why good people do not want to 
serve this country, because people on this Committee and others 
around this Capitol decide they can attack the witnesses and 
impugn their character.
    Let me read you a quote from the Fish and Wildlife official 
that you are talking about, Senator Wyden. The top endangered 
species official at Fish and Wildlife Service said, ``It was an 
entirely appropriate role. There was no arm twisting of any 
kind.'' He did not believe the change of direction was 
politically driven.
    Now you are accusing our witness of being unethical, 
immoral, lying. If you want to get a friend in Washington, get 
a dog. I think that is what a Democratic president said, and I 
guess they are making true to it today.
    Mr. Bernhardt, thank you again for being here.
    I started talking about moving the BLM headquarters to the 
West at the end of the Obama Administration. Since I first 
mentioned it, a ground swell of bipartisan support in our home 
State of Colorado has formed, supporting moving the 
headquarters to Colorado, more specifically, Grand Junction, 
Colorado, in the Western slope. If you want a street address, I 
can provide that.
    Grand Junction is situated in Mesa County, a county where 
74 percent of the acres are federally managed. Ninety-nine 
percent of the land BLM manages is west of the Mississippi 
River. You would think that locating the headquarters of the 
agency somewhere in that footprint would simply be common 
sense.
    In your testimony you alluded to the Trappers Lake Memo 
authored by Art Carhart. It stated that there are a number of 
places with scenic values of such great work that they are 
rightfully the property of all people. They should be preserved 
for all time for the people of the nation and the world. 
Trappers Lake is unquestionably a candidate for that 
classification.
    There are many places deserving of such protection in the 
West. However, there are also many places, many of which are 
managed by the Bureau of Land Management, that are literally 
made for and opportunities for resource opportunities, for 
grazing, others for wheeling, for energy, much of it for all-
of-the-above.
    The problem is if you have never lived or visited in these 
areas in the Western U.S., you would not know that. You may be 
tempted to treat every public acre as if it should be a 
wilderness area or some other kind of designation.
    That is why I believe it is important for the BLM to move 
out West so its employees live among the land they manage and 
can more readily see the practical impacts of the management 
decisions they make.
    Can you provide an update for us on the status of the 
Department's reorganization and relocation plans?
    Mr. Bernhardt. So, we're--thank you very much for that 
question.
    We're developing a business case for moving BLM west. We've 
just submitted our budget for 2020 which will, which 
contemplates a move west. And we'll be visiting with you and 
other Members of Congress to, hopefully, move west.
    It's very interesting. When I was confirmed as Deputy 
Secretary, a Senate Democratic staffer gave me what was a job 
description of the Deputy Under Secretary that came through a 
committee hearing. And in that very committee hearing in 1936, 
the members said if you're going to add a Deputy, we want you 
to spend at least half your time in the west.
    And I think with modern technology that's pretty easy for a 
bureau director to do. And as a matter of fact, most of them 
spend a lot of time in the west, and so I think their folks can 
too. It also adds an element of allowing us to get to places 
easier, more quickly, shorter flights which, and frankly, the 
quality of life of our employees will be fantastic too. So 
there's a lot of reasons to think about it, and we're trying 
it.
    Senator Gardner. Thank you, Mr. Bernhardt.
    It is unfortunate, but not unexpected, that the very 
qualities that make you a supremely qualified candidate to 
serve as Secretary are being portrayed by detractors as strikes 
against you. Instead of being portrayed as a competent lawyer 
who represents clients zealously and ably, you are painted as 
compromised and in pockets of industry.
    If the same standards had been applied to Sally Jewell, she 
would not have made it out of Committee. She was a former oil 
company employee who had most previously served as the CEO of 
one of the nation's premier outdoor recreational gear 
companies. That runs the gamut of issues the Secretary is 
required to balance when running the Interior Department. 
However, at the time they were portrayed in the press as assets 
that would help her responsibly guide the Department instead of 
a liability. Sally Jewell received 87 votes, 87 votes, 
Republicans and Democrats, when her nomination went to the 
Floor.
    Janet Schneider was Assistant Secretary of Land and 
Minerals and served under Secretary Jewell during the Obama 
Administration. She came from a law firm, she was a lawyer, 
where she handled environment, land, and natural resource 
issues. Her conflict list submitted to ethics was very similar 
to the substances in yours. At the same time of Ms. Schneider's 
nomination, Secretary of the Interior Sally Jewell said, and I 
quote, ``Janet's expertise in natural resource energy 
development and environmental law and policy will enable us to 
continue to safely and responsibly expand America's 
conventional and renewable energy exploration and development 
under President Obama's all-of-the-above energy strategy. With 
experience in both the public and private sectors she will be 
an advocate for a balanced approach and a science-based 
decision-making process that both advances the President's key 
energy initiatives and promotes the conservation of our federal 
lands and natural resources.''
    Apparently your experience is not to be given the same 
consideration.
    I am out of time, but I think there is an absolute double 
standard that is being applied here that private and public 
experience on one side of the aisle seems to be a benefit but 
private and public experience on the other side of the aisle 
seems to be a detriment. I get sick, and the American people 
get sick, of the double standards applied. You are more than 
well-qualified. You have dealt honestly and ably with every 
member of this Committee. If they look past the partisan 
politics, they will see your confirmation is absolutely in 
order.
    Thank you, Mr. Bernhardt.
    The Chairman. Thank you, Senator Gardner.
    Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Acting Secretary, as you are aware, New Mexico is one of 
the most productive oil and gas states in the nation; however, 
we also fiercely defend our history and our culture.
    The Greater Chaco Canyon landscape is one of the most 
sensitive and important cultural landscapes in the nation, and 
it is eminently threatened by recent expanded oil and gas 
development. The BLM and the BIA have been working on a new 
land use plan for the area, but after five years we have yet to 
even see a draft produced. So local residents, tribal leaders, 
other community members, elected officials are all stuck 
reacting to announcement after announcement of proposed leases 
in the area.
    Senator Udall and I have proposed legislation to 
permanently withdraw the federal minerals in the immediate 
vicinity of the park, and I certainly hope this Committee will 
work with us to move that legislation.
    But as Secretary, you would also have the authority to 
withdraw this area from oil and gas development. Is that 
something you would be willing to consider through the NEPA 
process, withdrawing federal minerals around Chaco Cultural 
National Historic Park and would you be willing to come out to 
New Mexico and meet with the tribal leaders and other elected 
officials who have a strong interest and ties to this area?
    Mr. Bernhardt. First off, thank you very much for that 
question and, more importantly, thank you for giving me some 
time with you to visit yesterday.
    First off, I would love to go to New Mexico and visit the 
site with you, that would be great, and meet with your 
constituents, more than happy to do that.
    I do think that the planning process probably provides an 
opportunity to include some alternatives that would be 
conservation oriented, and I'd be happy to work with you and 
work with those details with you. But I'd like to get out 
there. Let's see the site, and then talk about it.
    Senator Heinrich. I appreciate your willingness to come out 
and see things with your own eyes. I think that is always 
helpful. It is certainly something that Secretary Zinke and I 
sometimes had some fairly exciting exchanges here.
    [Laughter.]
    But once we were able to go out and travel into a 
landscape, usually with a horse involved, things got more 
reasonable for some reason.
    [Laughter.]
    The Administration's budget request for next year, I was 
disappointed to see, included almost no funding for LWCF. And 
that was really despite this enormous ground swell of support, 
everyone being so excited about finally, permanently, 
reauthorizing that program.
    I really worry that, you know, LWCF is one of the most 
critical tools that we have for expanded access to public lands 
for hunting and fishing, for all sorts of other uses as well. 
We have a lot of public lands that you can't legally access 
right now. You literally cannot get there by any means. And we 
have certainly been very successful at using that in New Mexico 
to open up areas to public access.
    So talk to me about why there is no significant funding for 
this program if sportsmen's access on public lands are a 
priority for this Department?
    Mr. Bernhardt. Well, let me say first that we applaud 
Congress for permanently authorizing the Act. That was a 
consistent position the Department held, and we really 
appreciate that.
    The budget, you know, my view of the budget is that it's a 
beginning of a discussion point to work through.
    The other thing I think that hampered us a little in our 
own negotiation through the budget process internally, it would 
have been nice if that legislation had been authorized.
    So I'm going to fight going into the next year, and we'll 
see where we come out. I'd like to work with the entire 
Committee this year to make things land in the right place.
    The other thing we have done, and this is in our budget, is 
we've really invested in the mandatory spending side for the 
Restore Our Parks Act. And so, that was a positive.
    The other thing is overall we had a net of plus $900 
million. So compared to some other agencies, we fought pretty 
well internally, but we didn't get everything we wanted. And 
we'll fight hard for that. I think we have a little leverage.
    The other thing I should let you know, all of you who 
worked so hard on the lands package, is I have taken a process 
that I used when I was a counselor to the Secretary to 
implement the Energy Policy Act which was quorum at the task 
force, specifically to implement the Act quickly and 
thoroughly. And we're applying that task force model. I signed 
a Secretarial Order yesterday to apply that very task force 
model to the implementation of the lands package so that we can 
expeditiously get ahead of all the 120 provisions that you have 
included in that.
    Senator Heinrich. One of the provisions that we would urge 
you to just take a look at as you are doing that would be the 
access provisions, because there is good language in the 
legislation to provide that.
    Mr. Bernhardt. There absolutely is.
    Senator Heinrich. Thank you.
    The Chairman. Thank you, Senator Heinrich.
    We appreciate that update on the Secretarial Order, because 
that is something that we would all like to see advancing.
    Senator Lee.
    Senator Lee. Thank you, Madam Chair. Thank you, Mr. 
Bernhardt, for your willingness to be considered for this 
important position.
    I want to note at the outset you are someone who I first 
met, I think, 14 years ago or so. In my every interaction with 
you I have been impressed at the care that you have 
demonstrated to following the law, making sure that at every 
step in your in government you are following the standards that 
are expected of the Department and that are compelled by law. I 
have deep respect for that.
    It is not always a fun or an easy task to be in that role. 
And in my every interaction with you and every action that you 
have undertaken that I have been able to observe, even from 
afar, you have impressed me as an administrator, as a legal 
mind and as a citizen who has an unusually compelling 
commitment to the rule of law and to sound public policy. I 
appreciate that about you.
    You are someone who enjoys the support of groups of 
sportsmen, of outdoor recreationists, of wildlife groups and 
many others who advocate aggressively to make sure that they 
maintain access to public lands for the things that they want 
to use it for. Multiple use is, of course, an important part of 
our public lands management policy.
    A lot of these people want to make sure that their 
interests are not overlooked and that they are taken into 
account. What would you do as far as adopting specific policies 
that could help ensure that the voices of those stakeholders 
who have great interest in and care a lot about our federal 
public lands, make sure that their voices are heard?
    Mr. Bernhardt. Well, we've taken one step last week, as a 
matter of fact, Senator. I really appreciate the question.
    At the end of the day public access for folks to get out 
and use and utilize and enjoy our lands, whether it's for 
hunting and fishing, for backpacking, it's so critical. And one 
of the things I did is I issued an order to BLM that basically 
says simply, if you're thinking about disposing of a piece of 
land or you're thinking about exchanging a piece of land, 
before you can do that at all, you need to consider the public 
access benefit of that land so that that's treated just like 
other high priorities of FLPMA in analyzing that piece of 
property.
    We have opened and we continue to open acreage for hunting 
and fishing, for additional lands. We are on a mission where 
we've taken and have 12 full-time folks in the Fish and 
Wildlife Service that are trying to coordinate to ensure that 
we have better hunting and fishing opportunities that our state 
law and our laws, our regulations are carefully constructed to 
not impede each other. And we're doing some great things with 
that. The reality is people love our lands and they enjoy them 
and the more folks out there, the better.
    Senator Lee. Yes.
    You have been nominated to a position that is involved in a 
lot of decisions that are sometimes controversial, and yet it 
is also a position in which there is a lot that makes people 
happy.
    There is not a lot that makes the people happy about the 
Federal Government these days. We live in a day and age when 
Congress enjoys an institutional approval rating that hovers 
between 9 and 11 percent, making us slightly less popular than 
Fidel Castro in America.
    [Laughter.]
    Slightly more popular than the influenza virus which is 
inexplicably gaining on us.
    [Laughter.]
    One of the things about the Federal Government people still 
like, that still makes them happy with the Federal Government, 
in particular, is the National Park System. They like that. 
They enjoy it. They want to make sure that they continue to 
have access to their national parks and that the maintenance 
backlog doesn't interfere with their ability to access them.
    What kinds of things do you have in mind to make sure that 
people will continue to be happy with at least that part of our 
government?
    Mr. Bernhardt. Well, what--the confirmation process is such 
an interesting opportunity to visit with all of you. And almost 
every member said the same thing to me and I think it gives us 
a lot of hope.
    I think you have a real opportunity to build on the 
bipartisan success that you've had with this lands package by 
working with us and together on the Restore Our Parks package. 
That's something that we've proposed, and we manage about 
76,000 constructed assets across the park system. I was in 
Acadia. You could actually look through a cinder block building 
and see the outside. Over 54 percent of our asset portfolio was 
constructed before 1966, and there is such a need to make a 
real investment there. So I'm really hopeful. Almost every 
member I met with brought it up. Love to work with you on it.
    Senator Lee. Thank you, Mr. Bernhardt.
    Thank you, Mr. Chair.
    Senator Gardner [presiding]. Thank you, Senator Lee.
    Before I turn to Senator Hirono, I have here letters of 
support from several Colorado stakeholders including the 
Colorado Water Congress, Associated Governments of Northwest 
Colorado, the Colorado Farm Bureau and the Southern Ute Tribe, 
in support of the nomination of Mr. Bernhardt. I would just 
like to submit them for the record.
    Senator Manchin. Without objection.
    Senator Gardner. Thank you.
    [Letters of support of Mr. Bernhardt's nomination follow.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Gardner. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Mr. Bernhardt, I ask every nominee before any of the 
committees I sit on the following two questions to begin with.
    The first is since you became a legal adult have you ever 
made unwanted requests for sexual favors or committed any 
verbal or physical harassment or assault of a sexual nature?
    Mr. Bernhardt. No, and as a father of a 13-year-old 
daughter I won't tolerate it.
    Senator Hirono. Thank you.
    Have you ever faced discipline or entered into a settlement 
relating to this kind of conduct?
    Mr. Bernhardt. No.
    Senator Hirono. Mr. Bernhardt, in reviewing your testimony, 
obviously, we share a commitment to make public the lands 
accessible to the American people, to the sovereignty of Native 
American tribes, to combat workplace misconduct and a lot of 
your testimony went into that which I think is very much needed 
to develop a clear anti-harassment policy and also to address, 
as you just mentioned, the tremendous maintenance backlog. So 
we obviously agree on a number of aspects.
    I wanted to point out two very specific things that relate 
to Hawaii that I would want to ask for your assistance and help 
in.
    One is the USGS Hawaii Volcano Observatory which was 
completely destroyed, as you know, during the eruption, and we 
obviously need to rebuild that facility. There are discussions 
about building it outside of the island on which there are 
active volcanoes. So that does not seem to make a lot of sense. 
I would want to have your commitment that you will listen to 
the Congressional delegation as well as local stakeholders to 
put this observatory where the eruptions will likely occur.
    Mr. Bernhardt. So, I will----
    Senator Hirono. Good.
    Mr. Bernhardt. ----have to say that I will absolutely look 
into that.
    Senator Hirono. Let's do things that actually make common 
sense.
    The second thing is that the USS Arizona Memorial, I hope 
you have had a chance to visit it, but there is ongoing dock 
repair at the memorial and there is no foot access to this 
repair. You can imagine the millions of people who are very 
disappointed, including the 2,000 or so World War II veterans 
who plan their visits to Hawaii based on going to this 
memorial. And so, the Park Service has moved the date for 
reopening of this dock a number of times. I would like to get 
your support for working with our delegation to give us monthly 
updates on what is going on. Why do we keep having to defer 
when the dock is going to be reopened?
    Mr. Bernhardt. So let me tell you a personal fact. My great 
uncle went down on the USS Arizona so I can assure you----
    Senator Hirono. Thank you.
    Mr. Bernhardt. ----there is no one in the Department of the 
Interior that's more interested in having that problem 
addressed than I am. And we will absolutely give you a monthly 
update.
    Senator Hirono. That is great. Thank you very much.
    Mr. Bernhardt, you have frequently been paid to challenge 
the Endangered Species Act, right? So you are very familiar 
with the Endangered Species Act. You are just staring at me, 
yes?
    Mr. Bernhardt. I am certainly familiar with the Act, yes.
    Senator Hirono. Okay.
    Do you think the Endangered Species Act goes too far in 
protecting species that do not appear to have any economic 
utility or benefit?
    Mr. Bernhardt. I certainly have never said that.
    Senator Hirono. So you do not believe that?
    Mr. Bernhardt. My view is that there--I've worked with the 
Endangered Species Act for nearly 30 years and I actually think 
there's--I think the Act has wonderful goals, wonderful 
objectives. I think there's some ambiguity in the Act that has 
caused us----
    Senator Hirono. Yes, I agree. Most Congressional acts do 
have ambiguities.
    Mr. Bernhardt. Yes, they do.
    Senator Hirono. And so, how you are oriented in reviewing 
those ambiguities.
    So, you know, I would like to know why your agency is 
considering changing the species listing decisions to take out 
language that such decisions should be made, ``without 
reference to possible economic or other impacts of such 
determination.''
    That means that in these listing decisions you want to be 
able to consider the economic impact of providing protections 
to endangered species. Isn't that the import of the change that 
you are contemplating?
    Mr. Bernhardt. Actually, no, because under the law, under 
the Endangered Species Act, when you are making a listing 
decision you can only consider five factors. Those factors are 
factors that do not include economics. So you cannot consider 
it for the listing decision itself. The question is, could 
there be other documentation within----
    Senator Hirono. Yes, I know, Mr. Bernhardt. You are not 
supposed to consider economic decisions, but you are now taking 
out that provision so that you will be able to consider 
economic decisions.
    Mr. Bernhardt. Although it may come out of the rule, and 
that's still under debate, but it may come out of the rule. 
It's in the statute. So, it can't. No one can do that. That 
would be illegal. So it has to be the five factors and that's 
it.
    Senator Hirono. Well, I certainly review your proposed rule 
much more clearly.
    Mr. Chairman, I would like to enter into the record a 
September 12, 2018, letter that a number of us signed that 
expresses concerns regarding a number of rules changes being 
proposed by your Department, including well, there is a change 
that, as I mentioned about the economic considerations, a 
change that would limit the ability of the services to consider 
impact of climate change, rules to be changed that would 
rescind existing blanket protections for threatened species, 
two definitional changes, redefinitions in the proposal that 
would also make it a lot harder to protect endangered species.
    So, I would like to have this letter entered into the 
record, Mr. Chairman.
    Senator Gardner. Without objection.
    Senator Hirono. Thank you.
    [Letter regarding changes to the wording of the Endangered 
Species Act follows.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Gardner. Senator Cassidy.
    Senator Cassidy. Mr. Bernhardt, thank you for being here. 
Thanks for putting your name up. I know that you are the most 
experienced nominee since the '40s and your exchange with my 
colleague, Senator Hirono, in which you so were clearly versed 
in the statute versus the rule on economic issues kind of 
reflects that training. So thank you for offering yourself.
    Let me just make a plug for my--have my shoes in front of 
Gardner.
    [Laughter.]
    Let me just put a context here. As you and I both know with 
your experience, according to the Energy Information 
Administration, the Gulf of Mexico federal offshore oil 
production accounts for 17 percent of total U.S. crude oil 
production and the federal offshore natural gas production in 
the Gulf is about 5 percent of the total U.S. dry production, 
more than 45 percent of the total U.S. petroleum refining 
capacities along the Gulf Coast and 51 percent of the total 
U.S. natural gas processing employing thousands of hard-working 
Americans from many different states, the energy revenues not 
only fund the rebuilding of the Louisiana coastline but the 
LWCF which has broad support. So I just want to note that.
    And as regards to revenue sharing, this is my first 
question. I have a headline here--Angus King is going to perk 
up--``Offshore Wind Bonanza Draws Bidding War in Record-Setting 
Sale'' off the coast of New York.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    We have been trying to get revenue sharing for all forms of 
energy, not just oil and gas, but also wind. I would like to 
expand that. Now frankly, there will be Louisiana companies 
that are putting down the platforms for those wind turbines and 
Republicans are about all-of-the-above. So, you know, I have an 
interest in this.
    But what are your thoughts on expanding offshore revenue 
sharing for wind energy to states? I would specifically like 
this wind energy to go to fund coastal resiliency as rising sea 
levels are imperiling Maine, Louisiana, and eventually Nevada 
may be a coastal state. So just to throw that out there.
    [Laughter.]
    Mr. Bernhardt. Well, there's certain--thank you for that 
question.
    There are certainly a lot of discussions and thinking going 
into innovative ideas for coastal resiliency and the role that 
even public lands can play in those. And I think that's an area 
really worth people examining and thinking about over time.
    Revenue sharing has been an issue that I've dealt with in 
various contexts, and my view is that there certainly is a 
burden to areas where we ask energy to come from and that we 
need to work to deal with that.
    Senator Cassidy. Now I will also point out that LWCF really 
benefits Western states, the big block states. LWCF revenues 
are derived off my coast and benefit people with no coastline. 
So I do think that if we could have something that would 
somehow benefit coastal states as most of our nation's 
population lives along the coast--if we can build a coastal 
resiliency fund, similar to LWCF--that will hopefully limit the 
damages of these storms that are impacting, for example, most 
recently Florida, but my State of Louisiana prominently.
    Let me also ask. Now as I go through my state, which is 
trying to rebuild our coastline and that coastline has been 
lost because long ago Congress made the decision to channel the 
Mississippi River and we have lost the sediment that we need 
flowing through our bayous. We channeled that river for the 
benefit of inland ports, not Louisiana but inland ports. But 
the permitting process is so cumbersome, it may take 10 years 
to fund a project. And in the interim the geography is changed 
so much that the permit is now obsolete because the landscape 
has changed so much.
    What do you think about permitting efficiency? Can we get 
that so as we create coastal efficiency, we are not paying 
consultants, we are paying for resiliency?
    Mr. Bernhardt. So I really appreciate that question.
    In my opening statement I mentioned working on business 
processes. And irrespective of what one's policy views are, 
there's a lot that we can do better at the Department of the 
Interior.
    And let me just give you one example. With our NEPA process 
we've done a number of things. I have career staff ask us, hey, 
can we have some timeline goals? Which seems reasonable, right? 
You want a timeline for a goal. If you have a deadline you work 
to the deadline. They also were interested in, we have some 
goals for page limits. So we've worked on those.
    But more importantly what we did is I sat down with the 
state directors in BLM and I said hey, I have a process where a 
state director sends a document to Washington. It's in 
Washington and it goes to like 50 or 40 people and then it 
comes to me to go to the Federal Register. And that process 
takes a really long time, like 199 days on average. And if 
you're doing that, I'm sorry to cut your time, if you're doing 
that three times for an EIS that's like 300 days to an EIS. We 
have consolidated our briefing schedule for Washington down to 
an average of 29 days for BLM. So if you're in the field and 
you've worked on a project and you got it done and it's a good 
job, it comes up to us and in 29 days it's in the Federal 
Register. That is a huge thing.
    And what I'm going to get to spend the next two years 
doing, if I'm confirmed, is working on from the state director 
on down because there's just a lot of stuff in our system that 
just doesn't need to be there. Without modifying a single, 
environmental standard we can permit things much, much more 
expediently just by simply changing a few of our processes.
    Senator Cassidy. As I yield back, I will note I will finish 
where I started.
    Your experience is the most experienced nominee since the 
'40s. It has been demonstrated that you understand that process 
and how to make it more efficient for the benefit of those who 
are trying to conserve and preserve.
    I thank you, and I yield back.
    The Chairman [presiding]. Thank you, Senator Cassidy.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Mr. Bernhardt, congratulations on the nomination. I know we 
met before in your previous hearing.
    One of the areas that I want to focus on is the Interior 
Department's policy or initiative on the energy dominance 
policy. It appears that that policy extends to oil and gas but 
it does not extend to other forms of energy development on 
public lands such as solar, wind and geothermal.
    I noted on just while you have been at the Department of 
the Interior a couple of things have already happened that 
make, imply, your support more so of the fossil fuel industry. 
You repealed the regulations on oil and gas hydraulic 
fracturing on public lands and rescinded the regulations 
preventing emissions of methane from oil and gas production on 
public lands. You rushed to prepare for an oil and gas lease 
sale in the Arctic National Wild Refuge, you proposed to open 
essentially the entire coast of our country to Outer 
Continental Shelf oil and gas development, you repealed the 
offshore oil and gas safety regulations put in place by the 
Obama Administration after the devastating BP Horizon disaster, 
and you opened vast areas of what had formerly been protected 
as part of the Grand Staircase Escalante and Bears Ears 
National Monuments to oil, gas and coal leasing. So I guess my 
question to you is why isn't the Department giving the same 
level of intensity to cleaner forms of energy development that 
it is giving to fossil fuel development? Can you address that 
please?
    Mr. Bernhardt. So, first off, I really appreciate the 
question.
    I don't think I can name a policy where we've not treated 
like, for example, solar and wind equally fairly.
    Senator Cortez Masto. So what have you done? Can you just 
explain to me what you have done----
    Mr. Bernhardt. Sure.
    Senator Cortez Masto. ----to support a cleaner energy the 
same as you have done to support oil and gas?
    Mr. Bernhardt. So we have a number of renewable projects 
that are in our FAST-41 process which is an expedited NEPA 
review. We also have aggressively leased offshore wind areas on 
the East Coast.
    I think we are moving at about the same flip. And so, I 
would really, and the process improvements I just talked about 
apply to everybody.
    I'm just honestly not--I'm happy to look at that and see if 
the statistics line up and if they do, I'd love to talk to you 
about it because our position is not that one project should 
move faster than another. My position is we should move them 
all better and more effectively irrespective of, you know, 
type. We need to give people an answer and then move on.
    Senator Cortez Masto. So, and no, I appreciate that and I 
look forward to working with you.
    But here is my other concern. Yesterday it was reported on 
CNN that during the 35-day government shutdown earlier this 
year, BLM, under your supervision, approved 267 drilling 
permits and 16 leases applied for by oil and gas companies. Two 
of your former lobbying clients are among the companies that 
received approval for this application. This was during a time 
that you recalled some, but not all furloughed workers, who 
regularly review these applications. It is also my 
understanding that such supporting staff that contribute to 
these application reviews such as those that review details 
concerned environmental and cultural resources remained 
furloughed during this period.
    And on February 15th you were quoted in the Carlsbad 
Current Argus that work on oil and gas development continued 
and I quote, ``Because the fees were still coming in. There's 
also safety. We need to keep things safe. We need to keep 
things going. I'm very comfortable with what we did during the 
lapse. We could do more next time.''
    I guess my question is what exactly was the safety 
component applied to your decision to continue with the oil and 
gas permitting during the furloughs and during the government 
shutdown?
    Mr. Bernhardt. You know, I really appreciate that question 
because that specific reference during the shutdown our BSEE, 
the Bureau of Safety and Environment, was continuing critical 
inspections and permitting on offshore vessels. And we did 
that, those activities throughout the continental shelf. And 
so, that was the safety issue I was specifically speaking 
about.
    The reality is that the Department of the Interior has a 
very complex budgetary framework. And what that means, and this 
becomes important after people miss a couple paychecks, what 
that means is there was money to do certain things and not 
necessarily everything.
    For example, the Park Service only receives one-year money. 
Other states, other bureaus receive multi-year money. So we've 
had money that we had not obligated that we could spend and 
then fee revenue can be spent right away.
    So I'd be happy to walk you through each of those accounts 
to show you what we did. But I made a decision during the 
shutdown that we were going to put people back to work because 
I could guarantee that they'd get paid. And I didn't know how 
long this was going to take.
    I can tell you I had employees that were calling our ethics 
office to see if they could sell their plasma. And so, I made a 
decision to put folks to work that I could and that we had 
resources for.
    Senator Cortez Masto. I notice my time is out, and I will 
submit the rest of my questions for the record.
    Thank you.
    The Chairman. Thank you, Senator.
    Senator Daines.
    Senator Daines. Thank you, Chair Murkowski.
    Mr. Bernhardt, when you were before this Committee last 
time, pertaining to your nomination to be Deputy Secretary, we 
talked about the important role you had in balancing the 
multiple missions of the agency within the Department. I very 
much appreciate the balance that you bring to this very 
important job. In Montana, we say that is the balance between 
Merle Haggard and John Denver.
    You have taken good leadership at the Department toward 
that end. In fact, just last week signing a Secretarial Order 
facilitating more public access to public lands for hunting and 
for fishing. By the way, we heard from Dr. Cassidy earlier. His 
complaints, Senator Gardner and myself, we have better elk 
hunting in Colorado and Montana. Let the record show that. You 
also took the allegations of sexual misconduct at the National 
Park Service very seriously. You took it head on protecting our 
National Park Service employees from workplace harassment. And 
even more specific to my state, you helped protect an area 
right outside of Yellowstone National Park, Paradise Valley. It 
is named that for a reason. You protected that from large scale 
mining.
    In fact, we recently enacted the Yellowstone Gateway 
Protection Act that came through this Committee with my support 
with bipartisan support to permanently withdraw these lands 
from mineral development. But in October 2018 then-Secretary 
Zinke issued an Administrative Withdrawal that would protect 
this area for 20 years. So you all acted first in the 20-year 
protection followed by the legislation that allowed permanent 
protections, the longest time possible for any administrative 
action. I want to thank you for your leadership in that regard.
    Could you share with this Committee about your work to help 
and prepare the implementation of that withdrawal and why you 
saw that as an important act to take?
    Mr. Bernhardt. Well, I really appreciate that.
    That was actually, I went to Paradise Valley. That was my 
very first trip as Deputy Secretary at the Department, and I 
went out there. First, it's spectacular, it's location. I met 
with the community. And at the end of the day, as somebody from 
rural Colorado, I know that input from local communities is 
absolutely critical. We need to look at these on a case-by-case 
basis. We need to consider the impacts that these decisions 
have on the livelihood of the folks who work there.
    And you know, really at Interior we have opened hundreds of 
thousands of acres of refuges, of BLM lands to hunting and 
fishing. We have partnered with Fish and Game and state 
agencies to protect wildlife corridors for big game animals. I 
think that is something that's really important and I think as 
you work with the transportation bills and infrastructure 
bills, that's something we ought to really spend some time 
thinking about.
    And I was really excited to sign that Secretarial Order you 
mentioned last week because the requirement that we think about 
access before we make a decision to transfer or exchange a 
piece of property is so important that very few people where I 
grew up own a nice ranch to go hunting on. They depend on an 
opportunity to go shoot an elk or a deer on public land. And if 
you take that away from them, that has a tremendous impact on 
their social, you know, their love for the outdoors and we just 
cannot allow that to happen.
    Senator Daines. You know, we pride ourselves, Mr. 
Bernhardt, in Montana. It is a state where you still can go 
down to Walmart and buy an elk tag over the counter and be at a 
trail head, public lands, within 30 minutes with the next 
generation of hunters here, kids, grandkids and so forth.
    I want to shift gears and follow up with what Senator 
Heinrich talked about, LWCF, and he was just a great partner in 
moving that forward and getting permanent reauthorization with 
a 92 to 8 vote in the United States Senate.
    You understand the value of public access to public lands. 
You understand the importance of locally-driven conservation 
that balances the needs of landowners. However, the President's 
proposed 2020 budget for the LWCF fund seems to signal 
otherwise.
    LWCF is one of the greatest tools we have to give access to 
locked up public lands in the West. Seventy percent of our 
fishing accesses in Montana have been funded through the Land 
and Water Conservation Fund. We have over one and a half 
million acres in Montana of public lands that are inaccessible. 
LWCF also helps build playgrounds in cities and towns. They 
help multigenerational ranchers stay working their land, helps 
our local sawmills get a steady supply of timber. So it is a 
big deal in Montana.
    We were disappointed. Frankly, I have to tell you this. 
When I saw the President's budget come out, it looked 
embarrassingly low on funding for LWCF. Can I get your view of 
that program?
    Mr. Bernhardt. Well first off, let me thank you personally 
because you're the one guy I could call and say, hey can you 
help push this along too. And I really appreciated that and 
appreciated everybody's support, but I really enjoyed visiting 
with you to get that permanent reauthorization done. I had the 
good fortune of joining many of you at the signing ceremony. 
And you know, here you guys have worked on this bipartisan 
effort, maybe the single largest and wide-ranging bill passed 
since the 1970s on these issues.
    And you know, the signing is sort of pass the baton to us, 
if you will, to implement. And I will work very hard on our 
budget next year, and I want to work with you on our budget 
this year. I'm a believer in the program, and I want to move it 
forward.
    Senator Daines. Okay. Thank you, Mr. Bernhardt.
    The Chairman. Thank you, Senator Daines.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Mr. Bernhardt, following on that same theme, I am 
disappointed in the firefighting budget as it relates to the 
Department of the Interior's part of that program. I am going 
to definitely be sending you a letter on that today, but we 
worked very hard in a bipartisan fashion to end fire borrowing. 
And so, we want to make sure that the President's FY2020 budget 
proposal, which basically reverses course on that or at least 
doesn't move us forward as it relates to the budget, that you 
are going to be an advocate on moving forward on the principles 
that we passed here in Congress to end fire borrowing and make 
huge investments in the types of fuel reduction and investment 
we need to see.
    Mr. Bernhardt. Well, I really appreciate that question.
    Unfortunately, we haven't had a chance to meet yet and 
visit. I know we have one meeting scheduled. And I'd love to 
talk to you about that issue because from my perspective we're 
in a little different place, at least with Interior's budget 
and fire, that we actually feel like we got the additional $300 
million. So I'd love to have the discussion with you, 
understand it and am happy to work with you on the issue. We 
all have a commitment to make sure that we're actively 
addressing those issues in the proper way, so I'd be happy to 
visit with you about it.
    Senator Cantwell. Okay.
    Do you support what we did in ending fire borrowing and 
putting resources toward fuel reduction?
    Mr. Bernhardt. I absolutely support putting resources 
toward fuel reduction.
    Senator Cantwell. And?
    Mr. Bernhardt. And the borrowing.
    Senator Cantwell. Thank you.
    Alright, Mr. Bernhardt, I wanted to talk to you about the 
Arctic National Wildlife Refuge (ANWR) and obviously you have 
an important role here to play. I want to ask about, 
specifically, the coastal plain of the refuge is typically one 
of the greatest concentrations of polar bear dens across the 
Alaskan Arctic coastline and the Southern Beaufort Polar Bear 
population would be one of the most impacted by drilling. I am 
concerned that they are, you are, rushing to move forward on 
this, you know, to drill in the Arctic Wildlife Refuge.
    So my questions are do you believe the Endangered Species 
Act and ANILCA, the Alaska National Interest Lands Conservation 
Act, and the National Wildlife Refuge System Act apply to the 
National Arctic Wildlife Refuge? Do those laws apply to the 
Arctic National Wildlife Refuge?
    Mr. Bernhardt. I wasn't--certainly the Endangered Species 
Act does and the Marine Mammal Protection Act does and both of 
those are acts that really protect polar bears and those are 
the primary acts that we look to in addressing polar bear 
issues. And they both would apply to any activities that happen 
in the 1002 area.
    Senator Cantwell. And the ESA?
    Mr. Bernhardt. What's that?
    Senator Cantwell. And the ESA?
    Mr. Bernhardt. Absolutely, the ESA.
    Senator Cantwell. Okay.
    A memo was written by Dr. Patrick Lemons, Chief of Marine 
Mammal Management, U.S. Fish and Wildlife Service office in 
Alaska detailing numerous areas where the Interior Department 
does not have enough information about polar bears to determine 
whether or not the Arctic National Wildlife Refuge drilling 
would harm or kill polar bears or destroy designated critical 
habitat. Are you aware of this memo?
    Mr. Bernhardt. I'm generally aware of the memo.
    Senator Cantwell. Okay.
    Can you--do you believe in the analysis? The Interior 
Department scientists apparently shared this memo because they 
believe the science in some of that information might be being 
suppressed. Do you believe in the analysis conducted by the 
Department scientist and incorporated into that EIS? If you 
don't know the answer, you can give me an answer later, but I 
want to know whether you believe in the science that was part 
of that.
    Mr. Bernhardt. So when we look at ANWR, and we spent a lot 
of time on this, you know, first off you start, there's a ton 
of studies that were done in the '80s, but more recently the 
Fish and Wildlife Service completed a comprehensive 
conservation plan for ANWR in 2015 which really, I think, had 
over 2,500 pages of documents, 57 pages of literature 
citations. And then in 2018 I asked the U.S. Geological Survey 
to create a summary of anything that was an update to that. So 
I feel very confident that our entire record includes 
everything possible for ANWR in terms of things that are 
already available.
    I think the memo that you are speaking to goes to studies, 
to studies----
    Senator Cantwell. Can you share that information you were 
just--can you share with us that information, correspondence or 
documents so that we can see that too?
    Mr. Bernhardt. I'll bring it to our meeting and we can talk 
through it, yeah, of course.
    Senator Cantwell. Thank you.
    I think, you know, my concerns here are that I think we are 
rushing. Now we had a debate. Obviously, my viewpoint failed, 
but I did not think the drilling was consistent with the other 
goals of a wildlife refuge. I definitely disagreed on that 
point.
    As a steward of our lands, I hope that you are going to use 
these oversight responsibilities as it relates to managing the 
wildlife refuge and not ignoring those responsibilities as you 
look to moving forward.
    I am sure much of this is going to end up in a big legal 
dispute, but I think for you to help us by being transparent on 
how you are meeting the goals of those other relevant acts as 
it relates to managing a wildlife refuge will be very important 
for people in the United States.
    Thank you very much.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Senator McSally.
    Senator McSally. Thank you, Madam Chair.
    Mr. Bernhardt, good to see you again. Thanks for being 
here, and I really appreciate all your leadership on so many 
issues that matter to Arizona.
    I want to talk a little bit about sexual harassment issues 
in the National Park Service. Unfortunately, Grand Canyon 
National Park has been ground zero for the issues across the 
board in the National Park Service. In a recent survey nearly 
39 percent of Park Service employees said they experienced 
sexual harassment.
    But when I see what is, you know, what is going on in Grand 
Canyon National Park over the years, it is atrocious. It sounds 
like a bunch of frat boys that think they can just get away 
with an environment of toxicity and harassment and bullying and 
you are very familiar with this.
    The Grand Canyon Park Superintendent, Christine Lehnertz, 
was brought in to clean house, the first-ever female 
superintendent and unfortunately I know a little bit about 
going into a good ole boy network and trying to change the 
environment. Unfortunately, she then came under some 
allegations last year that she has been completely exonerated 
from but now she has resigned.
    I am really concerned about the message that that sends to 
the harassers and the bully-ers that somehow you can try to 
derail progress, you can derail a female leader and maybe they 
can get back to business as usual. I am concerned about the 
Grand Canyon National Park, the culture, and the leadership 
there. Across the Park Service, for sure, but specifically the 
future of this leader, what has happened to her and what is 
going to happen at Grand Canyon National Park to make sure that 
people are treated with honor and respect and dignity and they 
are serving that regard and that harassment and bullying and 
the types of behavior that was happening there is not going to 
be tolerated and leaders who come into change it are not going 
to be pushed away.
    Mr. Bernhardt. I really appreciate the question.
    First, on a personal side I was very disappointed that she 
just resigned, and I know that the Deputy Director of the Park 
Service was disappointed in that and that's a personal choice.
    Let me tell you what we have done. We have dramatically 
revised our anti-harassment policy. We have hired anti-
harassment coordinators. We've reprioritized funding. I have 
basically required every single bureau to bring me an anti-
harassment plan, handed that plan to experts, had the experts 
go through it, come back to me and tell me what needed to be 
tweaked and then say, implement it and we're watching you.
    The IG, in about a month, will have an evaluation of that, 
and I imagine there will be some, you know, people doing 
better, some people doing worse.
    That park that you mentioned, in particular, we're going to 
have a good person there.
    Senator McSally. Okay.
    Mr. Bernhardt. And I, look, what I've told the management 
side is if they don't deal with these issues themselves, I'm 
dealing with the management. And because what really happens is 
these things just get shoved under the, you know, they're 
shoved away because they're hard to work with.
    We've dramatically changed the way we handle personnel in 
the Solicitor's Office, and we're going after that. I cannot 
have an environment where I have to think that if Katie wanted 
to work, my daughter wanted to work, at Park Service, that's 
threatening. That's--it's unacceptable.
    Senator McSally. Exactly.
    Mr. Bernhardt. We're dealing with it.
    Senator McSally. Well, I appreciate it.
    The policies matter, and I appreciate you bringing all that 
into order, but ultimately this is about leadership and it is 
about your managers up and down the chain and, I think, the 
culture as well and holding people accountable and then making 
sure that you are training and promoting those who are the 
right leaders and that you are holding the leadership 
accountable, like you have talked about.
    So I definitely want to follow up and maybe we need to go 
visit and see what is going on up there. Let's do that. I will 
invite you. Let's do that together.
    Mr. Bernhardt. That would be great.
    Senator McSally. I want to follow up also on water. Water 
is life in Southwestern Arizona. I know you have a long and 
distinguished background in Western water issues, and we are 
dealing with a number of them to include the DCP and other 
things.
    I really appreciate this Administration's strong commitment 
to Western water through the Drought Contingency Plan, the 
California Central Valley Water Memo and just commonsense 
regulations.
    Can you discuss plans for the upcoming year and how you 
will keep focused on Western water issues?
    Mr. Bernhardt. Well, you know, I'll be very candid with 
you, I think we have the best commissioner for the Bureau of 
Reclamation in history.
    Senator McSally. I agree.
    Mr. Bernhardt. And so, I don't have to worry when I go to 
bed at night at Interior, I don't worry a lot about water 
because Brenda has it under control. I have her back. I think 
she's doing, Brenda Burman is the Commissioner, and I think 
she's doing a tremendous job. Our Assistant Secretary, Tim 
Petty, for Water and Science, is doing a tremendous job. I 
think we have a great team. We've just added Pat Weaver.
    We're firing on all cylinders there and, you know, my job 
right now with Brenda is just to stay out of her way.
    Senator McSally. Great.
    An Arizonan, I will note.
    Thank you, Madam Chairwoman, I appreciate it.
    The Chairman. Thank you, Senator.
    Senator King.
    Senator King. Thank you, Madam Chair.
    First, Mr. Secretary Designate, I want to thank you for 
coming to Maine last week for visiting Acadia National Park 
which is a beautiful place anytime of year, for discussing with 
me the future of the Katahdin Woods monument, for the 
commitment that you made to work with us on solidifying that, 
the future of that monument and the budgetary, the funds that 
are in the budget. So I appreciate that.
    Mr. Bernhardt. Well, thank you very much.
    You know, I really want to make sure that we move promptly, 
get that plan in place. And if I was, you know, what I really--
Acadia is fantastic and I really enjoyed the opportunity there. 
Maybe we'll come up this summer and go to Katahdin, because I 
think everybody should and we ought to be getting there as 
quickly as we can.
    Senator King. I hope you will. And as I understand it, if 
we get that management plan done, we have----
    Mr. Bernhardt. You're rock solid. You're rock solid today. 
The Park Service is there. You're part of the Park Service.
    Senator King. Thank you.
    My next question is, and I think you said this but I want 
to just nail it down on the record, you and the Administration 
are going to help us, support us and push on the Restore Our 
Parks Act, is that correct?
    Mr. Bernhardt. Absolutely.
    Senator King. I do have a suggestion that we made before in 
this Committee that we fund the Restore Our Parks Act 
alphabetically.
    [Laughter.]
    Mr. Bernhardt. By state or by park?
    Senator King. Oh no, by park.
    [Laughter.]
    Acadia. Sorry about Zion, Madam Chair, but anyway.
    More serious question about offshore drilling. As you know 
the former secretary created quite a stir a little over a year 
ago talking about all the coasts are going to be open to 
offshore drilling. There was some dispute about Florida.
    Here is my concern. NOAA is moving some regulatory changes 
that appear, they are talking about streamlining. We do not 
really know what they are going to say, but it appears it could 
limit states' abilities to affect these decisions through the 
Coastal Zone Management Act. BOEM is part of that process.
    Can you comment on your view of the state's role through 
the Coastal Zone Management Act or just generally in this 
process?
    Mr. Bernhardt. Well, I can't. I'd be happy to look at it 
and get back to you on the NOAA issue because I'm just not 
familiar with that. I'm sorry.
    Mr. Bernhardt. I can comment on our planning process, and 
our planning process involves extensive input from the states. 
As a matter of fact, it has special notification provisions for 
when we talk to states. And I can assure you that, you know, we 
listen to states. And so, we'll have a lot of dialogue with 
them.
    Senator King. The case of our State of Maine, I can tell 
you we have a Governor, a legislature, and a bipartisan 
Congressional delegation that is, to use your term, rock solid, 
against offshore drilling or testing.
    So here is the dilemma I have. We are talking about your 
confirmation, your vote may come up in the next several weeks. 
If a member of the New England delegation votes for your 
confirmation and then you move for offshore drilling, I don't 
know if I can go home again.
    Mr. Bernhardt. I completely appreciate that.
    You know, the dynamic I have here is the President issued a 
very clear Executive Order, and that order says do a review and 
then it says give full consideration to including lease sales 
on an annual basis in each planning area.
    So, you know, we're at the very beginning of our process. 
We went out with the draft. We need to go out with a new 
proposal and so----
    Senator King. I am worried about the timing. This all 
started a year ago and we were told there would be a draft last 
fall, and we still have not seen it.
    Mr. Bernhardt. Well, I'd be very clear with you and say 
that I don't know what the timing is because it's not done to a 
point where they've wanted to bring it to me yet. So I don't 
have it yet. But I don't think it's going to happen 
immediately, and I'm happy to work with people to figure that 
out.
    Senator King. Do you think the position of the states, as 
expressed through their elected leadership, will be of 
significant consideration?
    Mr. Bernhardt. It--well, there's three factors that we have 
to look at under the law, and that's exact--that is one big 
one.
    The entire planning process is supposed to do this. Start 
out big and winnow down to an area that we have for a five-year 
plan. And so, we're at like step one, not step seven. And so, 
we just have to work through that process.
    Senator King. Can I get your personal assurance here today 
that the position of the state, its Congressional delegation, 
will be a major consideration in making this decision?
    Mr. Bernhardt. Absolutely. Absolutely. It's required.
    Senator King. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chair.
    Mr. Bernhardt, welcome. You seem to be surviving your 
confirmation hearing pretty well.
    I noticed a question about even ended treatment of 
different forms of energy. I am wondering this. I noticed that 
the Department fined the Exxon Corporation $7,000 a bird for 
migratory birds that were killed by exposure to hydrocarbons in 
the Midwest.
    I wonder if you are fining wind developers $7,000 a bird 
for birds, migratory birds, killed by wind turbines which could 
be also described as Cuisinarts in the sky.
    [Laughter.]
    Mr. Bernhardt. Yeah, so, we've----
    Senator Alexander. I mean, are you applying an equal 
treatment for wind for, you know, bird killing by windmills?
    Mr. Bernhardt. They are certainly being applied equally 
today.
    Senator Alexander. Let me ask you a few questions about 
continuity.
    Secretary Zinke was a good friend to the Great Smoky 
Mountain National Park which is your most visited park. It is 
up to 11.5 million visitors a year, partly because of the 
opening of the new Foothills Parkway.
    I am going to mention three quick items that I do not even 
have much discussion with you on and then I want to also 
mention the Restore Our Parks Act.
    One is the Foothills Parkway which you and I have 
discussed. It has produced, I think, one of the most, if not 
the most, beautiful drive anywhere in the Eastern United States 
along the edge of the Smokies. It is a 33.5 mile right-of-way 
which the state gave to the Federal Government, the Park 
Service, years ago.
    And we are exploring with local communities and the state 
and the conservation fund and the Smoky Mountain Park Service 
ways to use that right-of-way for mountain bike trails or 
hiking trails while we are seeing whether the road will be 
built.
    So, I have enthusiasm for that and I just want to make sure 
that--Secretary Zinke knows about it. He has visited it. I want 
to make sure that you will continue to be aware of it and 
interested in it as we work with the Park Service and the 
conservation fund.
    Mr. Bernhardt. I can promise you we won't lose a step.
    Senator Alexander. Good, thank you.
    Number two, when Secretary Zinke visited the park, and this 
gets to the maintenance issue that Senator King talked about, 
he visited the Look Rock Campground up on Chilhowee Mountain 
and said that he would provide $2 million to open it. It has 
been closed five years for thousands of families who camp and 
visit there. I hope you will check on the progress toward 
fixing the roads to the bathrooms so that park can be opened.
    Mr. Bernhardt. I'll look into it today.
    Senator Alexander. I would appreciate that.
    Now, third on the Restore Our Parks Act, that has an 
extraordinary amount of support, 35 Senate co-sponsors on the 
new bill this year. We are all in agreement about it. The 
Chairman and Ranking Member moved it along through the 
Committee last year. Strong support in the House. The President 
is supporting it. The Office of Management and Budget, you and 
Secretary Zinke did.
    It has the opportunity to be the most important piece of 
legislation to help our National Park System at least since the 
1960s, because it has the capacity to cut in half the 
maintenance backlog at the Smokies and the other 416 or 17 
parks.
    So my question for you is are you going to continue to push 
the Restore Our Parks Act and what can we do and what can you 
do to make sure that this becomes a law?
    There are not many issues before the Congress today that 
had such broad bipartisan and popular support.
    Mr. Bernhardt. Well, you know, that's a wonderful point.
    Every and in each of my individual meetings that bill came 
up which I think is a good sign that there is really, you're 
right, there's a lot of support for it. So I think we need to 
figure out how to build on that and maybe talk to the House. 
And I'm happy to row as hard as I can.
    Senator Alexander. Well, I hope you will and I hope you 
will continue to work with the sponsors of the bill, Senators 
Portman, King, Warner, I, others and Senators Murkowski and 
Cantwell as we try to schedule its passage in the Senate.
    It may have something to do with the Land and Water 
Conservation Fund at the same time. But in any event, I would 
like to keep it at the top of the list.
    Mr. Bernhardt. Yes, sir.
    Senator Alexander. Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Alexander. Obviously a 
priority around here, and we appreciate you raising it.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman. I wanted to 
wait until the end here to make sure all my colleagues were 
able to get their questions in.
    Mr. Bernhardt, climate change is a priority to this 
Committee. We are working very hard, and my focus working with 
the Chairman and her staff is on seeking pragmatic solutions 
for energy innovation as well as adaptation and mitigation on 
our public lands.
    At your confirmation hearing two years ago, you testified 
that you take the science as we find it, whatever it is. But 
then you added, you believe that you should take the science 
and put it in a paradigm in the Administration's policy 
perspective. And I know you are put in a tough position on 
this.
    Is that still your view, that while you are willing to look 
at the science, are you able to push back if the Administration 
is going against the science that has been produced? Do you 
feel like you have input with our help?
    Mr. Bernhardt. So, first off, I really appreciate that 
question.
    Here's the one thing I can assure you. I'm not a 
wallflower. If I've got a view, they're going to hear it.
    Here's where I am. I recognize that climate is changing and 
man is contributing to that. But even if you look at the fourth 
assessment, what you'll see and this is what our scientists 
tell us, what you'll see is the largest uncertainty about 
projecting future climate is projecting future climate 
conditions that the largest uncertainty is what the level of 
GHG is actually going to be going forward because it's based on 
a number of things--economics, technology, political 
structures, demographics--and those are all really difficult 
for folks to predict.
    And so what our scientists have told us is when we're 
making a decision and we have to be really spot-on on this 
because if I look at the prior Administration, every day, even 
today, we lost a climate case, a case regarding how we analyze 
climate.
    We need to recognize that there's what our scientists say 
is recognize that there's no one single model or one single 
scenario that's right.
    Senator Manchin. Well, they can----
    Mr. Bernhardt. It's best to use these multiple models, 
think it through, multiple scenarios and then look at that 
range of possibilities and then make your decision in 
accordance with that.
    Senator Manchin. Yes, sorry, I want to move on to a few 
other things.
    Mr. Bernhardt. I'm sorry.
    Senator Manchin. No problem at all, but I understand. I 
come from West Virginia. I have a lot of deniers in my state. I 
have a lot of people understand that it is climate change, and 
we can do something. We don't have to do something drastic. We 
can do something basically. I am not for eliminating. I am for 
innovating.
    Mr. Bernhardt. Roger that.
    Senator Manchin. I am in innovation.
    Mr. Bernhardt. And that drives that----
    Senator Manchin. But basically, it is a global climate, not 
just North American or U.S. climate. We have to address this 
and we have to do it in a pragmatic way.
    Alaska and West Virginia being heavy lifters, we know we 
have to step up to the plate.
    Mr. Bernhardt. That's right.
    Senator Manchin. Now, with that being said, quickly, they 
talked about offshore. Here is what befuddles me. We have 6 
percent of the Outer Continental Shelf currently available for 
leasing. The proposal I think you all are recommending is the 
one with the 90 percent under the direction of the 
Administration.
    The only thing I can see is they want to basically be able 
to export because our demand and our consumption does not pair 
up with this at all. I think that Senator King is sharing a 
little bit. There is nobody on the Atlantic Coast that wants 
you to start drilling. Not one governor that I know of, not one 
Congressperson or Senator, Democrat or Republican.
    And we don't have a need for it because basically the 
growth we have had, the EIA states the Lower 48 onshore 
production continues to be the main source of growth.
    Now we are up to producing 11.9 million barrels a day as of 
February 2019. And they are saying that EIA is now predicting 
U.S. crude oil production continues to set annual records 
through 2027 and remains greater than 14 million barrels a day 
through 2040. But yet, the companies want to continue to go out 
there and start punching holes in the most drastic weather 
conditions we have, which is the Atlantic Coast.
    So we are asking, sir, please work with the governors. And 
being a former Governor, we have to answer to every one of our 
constituents every day, to all of our Senators and 
Congresspeople. This is really, really serious for all of us.
    Mr. Bernhardt. I appreciate that, sir, and I commit to 
working with the governors on it.
    We're at the beginning of the process. And I don't think 
Secretary Zinke ever thought that the entire 90, you know, 
everywhere would be ultimately leased, it would eventually be 
winnowed down. So, I don't think he was thinking that. And so, 
I think we'll work with you.
    Senator Manchin. I am going to take liberty on a couple 
questions, Madam Chairman, if you will allow me?
    Two things real quick.
    AML, abandoned mine land, has done so many good things in 
restoring land. As I have said, we must leave the land better 
than we started. AML, we don't have anything in the West. They 
do hard rock mining. They just leave it helter skelter. That 
has to stop. We have got to be good stewards and make them 
responsible.
    But AML is supposed to run out in 2021. I want to make sure 
that you feel strongly enough about that to support 
continuation of AML funds.
    Mr. Bernhardt. We'll work with you on that.
    Senator Manchin. Okay.
    Last, sir, I think you deserve a right to explain. I have a 
lot of my colleagues asking about recusal, your recusal. You 
have, I think you have been under recusal now for nearly two 
years, it runs out this August.
    You might want to explain your thought process on recusal, 
how it affects your job and things of this sort and what you 
think needs to be done there? And they have been asking me to 
ask you would you continue your recusal since so many of your 
clients are going to be working directly with this agency?
    Mr. Bernhardt. Well, I really appreciate that question.
    And you know, I've had time to think about that question 
since we visited a little bit earlier in the week.
    And you know, my perspective is that in the 1990s the 
Office of Government Ethics came up with the idea of a one-year 
period from the day you entered government, when you entered 
public service, to ensure that there was no bias for your 
dealings on particular matters involving specific parties for 
that year just to take away the appearance of impropriety or 
appearance of bias. And bias can go either way.
    Obviously, the prior Administration extended that for 
certain things to two years. Some things were one year, but 
some things were two. And the President kept it at two as well.
    And so, I'm now at the point where in a few months these 
recusals will run out for some things. Some things they've 
already run off. And you know, when I think about this one of 
the things I really think about is that I have a very 
particular skill set, strength, creativity, judgment that I'm 
basically handcuffed and not in the game for the American 
people if I'm not, if I am recusing myself. And I don't think 
that is really the best strategy.
    So my view is follow that responsibility through the period 
of time and then get in and be on the American team and win for 
the American team. I'm actually pretty good at going up against 
these guys, and I don't have any problem with doing that. And 
so, you know, I would say you want your A quarterback playing 
for your team.
    Senator Manchin. Thank you.
    Madam Chairman, thank you for the indulgence there.
    The Chairman. Thank you, Senator Manchin.
    Let's turn to Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Mr. Bernhardt, congratulations on your nomination. I really 
appreciated the opportunity to meet with you earlier this week 
to discuss your vision for the Department under your 
leadership.
    You know, over the past two years you have been 
instrumental in developing many important policies at Interior. 
You have been a champion of American energy dominance, 
simplifying complex reviews that have caused analysis paralysis 
prior to that. You developed policy that recognizes the need 
for responsible multiple use of our nation's public lands. I 
really look forward to more of this good work on your part and 
the Interior Department's in the future.
    In terms of communicating with Congress and the states 
during your nomination hearing for the current job you have, in 
2017 you emphasized your desire to work with stakeholders in 
developing policies, specifically identifying states and local 
communities as partners.
    You know, over the last couple of weeks Interior has taken 
a number of actions that directly impact the way that states 
and state land managers will work with Interior and other 
agencies. So, should you be confirmed, how are you going to 
make sure that you are communicating consistently with your 
state partners who are going to help you develop policies to 
address the real, on-the-ground needs?
    Mr. Bernhardt. Well, I'm reaching out to all of the 
governors. I've visited with all of them. And the one thing I 
will tell you, there's not a thing going out under my name 
going forward that folks don't know about before it goes out.
    Senator Barrasso. You know the Department has issued 
several critical pieces of guidance and rules that improve the 
management of federal land. I realize there is some discretion 
afforded to on-the-ground managers who implement the policies 
to ensure the policies are effective at the state and the local 
level.
    As Secretary, how will you communicate with BLM state 
directors and field office staff because there is no one 
nominated and confirmed as BLM director right now, to ensure 
that they clearly understand the intent of the Washington 
office?
    Mr. Bernhardt. Well, one of the things I've done is I've 
gone to the state director's offices themselves. I've been to 
Wyoming's and told them what I thought our policy should be. 
And if we have a field office that's out of kilter, I'll have a 
discussion with them. I have no problem with engaging directly 
to explain clearly where we need to go.
    Senator Barrasso. Great.
    Mr. Bernhardt. And we're working good with the Governor on 
some really innovative ideas, I think, that would allow the 
state to play a bigger role and facilitate a more streamlined 
process.
    Senator Barrasso. Former Secretary Zinke made commitments 
to me, to a number of other members of the House and the Senate 
to take administrative action to lower the royalty rate on soda 
ash. The proposed rule has not moved forward yet. So our 
natural soda ash producers continue to be undercut by cheap 
Chinese synthetics and continue to hope that the commitment 
from the previous Secretary will be realized. Will you commit 
to take the necessary actions to lower the soda ash royalty 
rate?
    Mr. Bernhardt. I'm working on that proposed rule as we 
speak.
    Senator Barrasso. I want to talk about some court decisions 
that are out there. Decisions made by Interior are no stranger 
to the courtroom.
    Last October a court reinstated the threatened status of 
the grizzly bear in the Greater Yellowstone ecosystem under the 
Endangered Species Act. Last week the D.C. District Court ruled 
that the Bureau of Land Management did not adequately consider 
greenhouse gas emissions under NEPA. The District Court of 
Colorado issued a similar decision just yesterday.
    Also yesterday a case was filed in the District Court in 
Idaho challenging the contents of the sage grouse records of 
decision and plan amendments, alleging violations of NEPA and 
other land management views.
    While these cases consider different questions, they do 
represent areas where courts have historically been divided. As 
Secretary, how do you plan to develop durable policy in a time 
where litigation seems to be the first response?
    Mr. Bernhardt. Well, you know, ideally you would say that 
greater collaboration leads to less litigation. And that's 
really what you'd think, but our numbers don't necessarily show 
that. And if you go back and look at the number of protests and 
you go back to like the '90s and then move through, we're now 
at about 88 percent protest for lease sales. So, we really need 
to think about those types of things.
    I've spent--I had the attorneys do an analysis a couple 
days ago to explain to me how much money we've lost in lawyer 
fees for climate cases that we lost in the prior 
Administration, and we're approaching a million bucks in fees.
    And so we have to do a really good job of articulating what 
exactly we're doing and how we're doing it and recognize where 
the courts are so that we can beat it.
    The reality, the sage grouse case you mentioned today, 
actually it's a challenge that was filed to the 2015 plan in 
2016. They've gone in and amended their complaint. So they 
didn't like the prior Administration's plan. They don't like 
our plan which I think probably tells you where you're going to 
end up with those types of things.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    We are going to turn to Senator Hoeven, but I understand 
that you, Senator Lee, would like just a moment here?
    Senator Lee. Yes, I would like to offer for the record a 
letter signed by Scott de la Vega, who is the Department of the 
Interior's Director of its Office of Ethics Compliance.
    Mr. de la Vega prepared an exhaustive report, quite 
lengthy, led by a four-page letter in which he explains and 
concludes that the Acting Secretary's conduct has complied with 
all applicable laws, regulations, ethical rules and other legal 
material that might be binding here. This is in response to a 
letter received from Senators Warren and Blumenthal. I have 
reviewed this and conclude that it confirms what I know about 
this top-quality nominee, who I know to be a man of upstanding 
character. I offer that for the record.
    The Chairman. Thank you, Senator Lee, that entire report 
will be included as part of the Committee record. We thank you 
for your review and its introduction.
    [Letter from the Office of Ethics Compliance follows.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    The Chairman. Let's turn to Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman. Thanks for 
holding the hearing, and Secretary Bernhardt, thanks for being 
here, thanks for coming by and visiting with me, both now and 
previously and for your service. We appreciate it very much.
    We have BLM lands. We have national parks. We have a large 
native population. We would like you to come to North Dakota.
    My first question is would you come out to our great and 
beautiful state for a visit?
    Mr. Bernhardt. Absolutely.
    Senator Hoeven. Thank you. I look forward to that.
    Mr. Bernhardt. Preferably during pheasant season.
    Senator Hoeven. Yes, exactly, that is phenomenal, just 
phenomenal.
    I am working on some legislation regarding minerals. As you 
know we have incredible energy development out there and we 
need to work on BLM lands on the permitting process. And there 
are a number of ways to do it, adequate resources for your 
field offices and you have some tremendous people out there 
that we have worked with. They have come up with some 
innovative ideas too. They are tremendous.
    But we need to make sure they have adequate resources in 
the field offices, and then we also need legislation in cases 
where you don't have any surface ownership, just mineral 
ownership, and we have legislation to do that that would 
expedite the permitting process in a sound environmentally 
responsible way.
    I would ask if you would be willing to work with me on 
that?
    Mr. Bernhardt. I sure would. It lines up with exactly what 
we're trying to do, Senator.
    Senator Hoeven. Good.
    Deferred maintenance backlog in the park. In Theodore 
Roosevelt National Park we have, as you know, we are working on 
a presidential library out there. We want your help with that. 
You and I have talked about that. I would ask, one, are you 
willing to help us with that? Obviously Teddy Roosevelt spent a 
lot of time out there--incredible, beautiful Badlands, that is 
just amazing.
    So not only that project, but the other is the deferred 
maintenance backlog. We are working with Lamar Alexander and 
others to address the deferred maintenance backlog in our 
national parks, really critical, obviously. I know you support 
it but would like you on the record on both those issues.
    Mr. Bernhardt. We are absolutely behind that. It's part of 
our budget, and we'll work with you on it.
    Senator Hoeven. I believe we have a real chance to get it, 
and it is so important for our national parks.
    Also, I chair the Indian Affairs Committee and would ask 
that you come to our Committee and testify. Are you willing to 
do that?
    Mr. Bernhardt. Of course, sir.
    Senator Hoeven. Okay.
    One of the pieces of legislation we passed recently is the 
Tribal Energy Resource Act. It gives tribes more control on 
their reservations over energy development, how they do it, 
traditional, renewable, whatever it is they want to do with 
self-determination. Please talk about how you can interact with 
them on that issue, please?
    Mr. Bernhardt. Well, we--I'm familiar with that legislation 
and I think that it really is the logical next step to self-
determination. And we want to work with the tribes that are 
interested in utilizing that authority. We would really like to 
work to have some successes with them.
    I think it lines up policy wise, spot on with where the 
Administration is and we'd like to work with tribes that are 
interested in that to see if we can have some successes.
    Senator Hoeven. Yes, I mean, it really does. It is about 
jobs. It is about opportunity. It is about self-determination, 
all things that, I think, are very good in terms of working 
with our Native population.
    Mr. Bernhardt. Absolutely.
    Senator Hoeven. Last area. I just recently had a field 
hearing in Bismarck and we have five reservations in our state, 
some we share with South Dakota. We have more tribes than that 
and we had tremendous representation from the tribal chairman, 
the tribal councils and others as well as our state leaders, 
the governor, our delegation and so forth.
    One of the things we really focused on was more law 
enforcement, particularly BIA law enforcement agents on the 
reservation to help with safety and protecting women and 
children and across the board, greater safety on the 
reservation. And it really came to the floor the need for more 
law enforcement officers, particularly BIA law enforcement 
officers.
    And as we listened to, like I say, tribal leaders testify, 
as well as the BIA, they said if you can recruit somebody from 
your geographic region not only are you more likely to convince 
them to go into law enforcement, but they are more likely to 
come and stay and continue because they are from the area.
    And so, one of the things we need is more training centers 
or more opportunity to have training centers around the 
country. For example, in our case, our state would put 
resources into it and that would reduce the federal cost to 
train the law enforcement officers. Not only would we be able 
to recruit more, we would retain them and it would cost less in 
terms of the federal cost share. This is something we need to 
do, and I would ask for your help in that. I know the 
Administration has initiatives in this area, particularly 
addressing violence against women and children on the 
reservation.
    Mr. Bernhardt. That's right.
    Senator Hoeven. It plays right into that as well as 
legislation we are trying to pass my Survive Act to provide 
more resources to help in this area. It is a big subject but it 
can have an impact in Indian Country and please touch on that.
    Mr. Bernhardt. So, number one, our Assistant Secretary for 
Indian Affairs is completely focused on the missing and 
exploited category, and we're working like crazy on this.
    What you're bringing up with this training, I think, is a 
great idea. And I think we actually went back to the office 
after we visited a little bit and thought we can also get some 
justice money involved I bet too.
    So we could bring together an interaction of folks because 
if we can keep law enforcement in an area, if we can recruit 
them, train them and then keep them in that area, we'd be much 
better off than where we recruit folks, they come in for a 
training for a few years and then they go to some other area 
because they're just not familiar with the area. So I'd like to 
work with you on that.
    Senator Hoeven. Well, I was very encouraged when you came 
in the other day and talked about wanting to take a leadership 
role in this area.
    I know for our Chairman this is a priority, something she 
has worked on and is working on right now. And it is not only 
the legislation that she is working on, it is bringing more 
resources through the Survive Act, it is the law enforcement 
piece. And for the Administration's initiative and for you to 
be willing to take a lead role in this, I think you can really 
have an impact.
    Mr. Bernhardt. And I think, you know, we're really pushing 
it and I think Tara's done a great job. I think we have a real 
opportunity to do something in this space that's unique and it 
fits. So I want to work with you on that.
    Senator Hoeven. Thank you, I appreciate it.
    The Chairman. Thank you, Senator Hoeven.
    I appreciate you bringing that up because that is a 
significant issue, and I have had a level of engagement with 
the Assistant Secretary as well. I am very encouraged by the 
focus coming out of the Administration in working with us on 
these matters. It is long past time to address them.
    I have just a couple more quick matters, and then we will 
wrap up. I appreciate your time this morning, Mr. Bernhardt, 
and the level and the detail to which you have responded to 
colleagues' questions here. It is greatly appreciated.
    Just very, very quickly here. I noted in my opening 
statement that you have received the endorsement of the Alaska 
Federation of Natives. I think that is significant, certainly 
considering, again, the very unique relationship between 
Alaska's tribes and the Federal Government and through the 
Alaska Native Claims Settlement Act of 1971. We are coming up 
on our 50th anniversary here.
    But we recognize that many of the commitments that were 
made under ANCSA remain unfulfilled. That is something that we 
try to chip away at, but it has been frustrating at times as we 
felt that the pace has just been very, very slow.
    Just very briefly, your commitment to ensuring that the 
Federal Government's commitments to Alaska Natives under ANCSA 
will be met and what you can do to ensure that we see more 
meaningful consultation with Native Americans, not only in 
Alaska but around the country. This is an area of concern that 
I continue to hear. There is a level of inconsistency with what 
consultation is and does and means. Some agencies are better 
than others. But again, it is making sure that this is more 
than just a check the box exercise. So, just very briefly, if 
you would.
    Mr. Bernhardt. Well, first off, and you're largely 
responsible for this, we have the best Indian Affairs hallway 
that we've had in a very long time. Tara, John, Mark--it's an 
incredible group. They're talented. They're doing great things 
in the way they've separated BIA and BIE.
    So one of the things we're doing is making sure that the 
other agencies understand consultation a little better. But we 
are completely committed. I have an A team, and I'll do 
whatever they ask in terms of helping them.
    The Chairman. Well, I appreciate you giving them that 
latitude, that flexibility to really build this up because I do 
believe you have extraordinary experts in place. Of course, in 
Alaska, we are very proud of Tara Sweeney and all that she is 
doing there.
    Within the lands package there was a provision that we were 
able to include that we were very pleased that the President 
actually singled it out when we were there at the signing for 
the ceremony in the Oval Office. It related to the Alaska 
Native Veterans Lands Allotment.
    One of the provisions, again, that we looked to, we have 
been working on for decades and finally we will see an 
opportunity for those who served us in Vietnam to be able to 
receive their native allotments that they were unable to take 
opportunity while they were serving.
    And I think it is fair to say we have been kind of 
tempering the expectations because we know there is now a 
process that needs to unfold in order to implement that 
program. I would ask you and your team there to be working 
aggressively to try to advance implementation with regard to 
the native allotments. It has been a long time in coming and I 
think it is a fair statement to say that many who have been 
waiting are anxious and eager to understand what their next 
steps will be. So I would like your commitment to be working on 
that.
    Mr. Bernhardt. Absolutely. It did not go unnoticed to me 
that the President specifically mentioned that.
    The Chairman. Yes.
    Mr. Bernhardt. And you know, we just formed yesterday this 
task force for implementation. I'll sit down with Joe or, 
sorry, the Assistant Secretary from Land and Minerals. We'll 
figure out what we need to do and we'll move toot sweet. One of 
the task force's jobs is to come back to me in 30 days with a 
schedule, so I'll work on that and the Assistant Secretary will 
and we'll get back to you.
    The Chairman. Great. I appreciate that as well.
    That was one of those initiatives that Secretary Zinke 
singled out and said we have to make some headway on and 
working with him, working with Senator Sullivan and you on this 
and the others, it is greatly appreciated.
    Finally, I just want to make sure that we have clarified 
for the record here some of the issues that were raised earlier 
by a couple colleagues.
    I appreciate that there were some hard questions for you 
here, but it must be exceptionally hard to sit in a committee, 
to sit where you are and to have it, not only be suggested, but 
to be stated that you have lied. That is very difficult. I 
think it is unnecessary.
    We can take hard questions around here, but I want to make 
sure that you have an opportunity, a final opportunity, to just 
respond very clearly, because it is my understanding that the 
Office of Government Ethics has completed the review process 
for your nomination and found you to be in good standing. Is 
that a correct statement?
    Mr. Bernhardt. That is correct.
    The Chairman. It is also my understanding that Interior's 
designated agency ethics official has determined that you will 
and this is in quotes, ``be in compliance with the conflicts of 
interest laws and regulations that will apply if you're 
confirmed as Secretary.'' Is that also correct?
    Mr. Bernhardt. That is correct.
    The Chairman. So I am very satisfied with these answers but 
is there anything else that you would like to add for the 
record this morning to any concerns that were raised or 
statements made by members that you believe deserve a response?
    Mr. Bernhardt. Well, I certainly didn't lie to the Senator.
    The Chairman. Thank you.
    Mr. Bernhardt. Thank you.
    The Chairman. Mr. Bernhardt, thank you for being here this 
morning. Thank you for your willingness to serve. Thank you to 
your family who are there to back you.
    Again, I appreciate all that you have done prior to this 
time in giving guidance, giving counsel and truly helping us 
move in a direction that is positive for this country.
    I look forward to a rapid confirmation through the process 
and to see you put in full capacity as Secretary of the 
Interior.
    With that, the Committee stands adjourned.
    [Whereupon, at 12:12 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------   
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              







</pre></body></html>
